              Office of the Inspector General of the Department of Defense
Project No. 2003C004                                                              September 11, 2003

                              Interim Report on the
             United States Air Force Academy Sexual Assault Survey1

                                         Executive Summary

The data in this executive summary was released to the Secretary of Defense, the
Secretary of the Air Force, The Panel to Review Sexual Misconduct Allegations at
United States Air Force Academy2, the Under Secretary of Defense for Personnel and
Readiness, the Assistant Secretary of Defense for Public Affairs, the General Counsel for
the Department of Defense, and the Air Force Inspector General on August 22, 2003.

A.         The Survey
In May 2003, the Inspector General of the Department of Defense authorized and
administered a survey of female cadets at the U.S. Air Force Academy (USAFA) as part
of the “Evaluation of Policies and Practices at the Military Service Academies Regarding
Response to Sexual Assaults.” The purpose of the survey was to determine the scope of
recent sexual assault incidents and to assess the perceptions of female cadets concerning
the Academy’s response to sexual assault (including factors such as reasons for not
reporting, likelihood of reprisal/ostracism for reporting assault, personal safety on
campus, cadet perceptions of the command’s handling of sexual assault, and cadet
perceptions of sexual assault support and training programs).

Two definitions were employed in the survey:

       •   Sexual assault (adapted from USAFA Instruction 51-201, “Cadet Victim/Witness
           Assistance and Notification Procedures,” April 18, 2000):
                  the touching of another without their consent in a sexual manner, including attempts,
                  in order to arouse, appeal to, or gratify the lust or sexual desires of the accused, the
                  victim, or both. Sexual assault includes, but is not limited to, rape, sodomy,
                  fondling, unwanted touching of a sexual nature, and indecent sexual acts that the
                  victim does not consent to, or is explicitly or implicitly forced into. It is immaterial




1
    We intend to subsequently include this report as an appendix to an Inspection Report on Project
      No. 2003C004 that is scheduled to be completed by December 2003. This later report will address the
      root causes of sexual assault and issues of accountability at the Academy.
2
    The information in the executive summary was released to “The Panel to Review Sexual Misconduct
    Allegations at United States Air Force Academy” to comply with their request for our survey results by
    August 22, 2003 to enable the Panel to achieve their statutory publishing deadline of September 22, 2003.



                                                       [1]
                  whether the touching is directly upon the body of another or is committed through
                                        3
                  the person’s clothing.

       •   Rape (adapted from the Uniform Code of Military Justice (UCMJ), Article 120,
           Rape):
                  an act of sexual intercourse with a female, by force and/or without her consent
                  (conscious or unconscious). Penetration, however slight, is sufficient to complete the
                          4
                  offense.

           (Note: The definition of sexual assault includes rape and attempted rape;
           consequently, the results for claimed sexual assault and the results for rape [and
           its attempt] are not additive.)

B.         The Data

Survey Population
Of the total female population of 659 cadets, 66 were unavailable. Of all available cadets
(593), 12 had unexcused absences. The remaining 581 cadets took the survey. Of their
responses, 2 were eliminated entirely⎯one was blank except for class year and a general
comment, and the other had so many inconsistencies that it could not be used. This left
usable responses from 579 female cadets (87.9% of the total female cadet population, and
97.6% of all available female cadets).

Scope of Recent Incidents
The 579 survey responses indicated the following:

       •   43 cadets (7.4% of all respondents)⎯including 15 members of the Class of 2003
           (11.7% of that class) ⎯indicated they had been victims of at least one actual or
           attempted rape in their time at the Academy.

       •   109 cadets (18.8% of all respondents) indicated they had been victims of at least
           one instance of sexual assault in their time at the Academy. Many cadets
           indicated they experienced multiple incidents of sexual assault, for a total of at
           least 177 incidents recorded. (This figure includes the 43 cadets who indicated
           actual or attempted rape.)



3
    The definition of sexual assault employed presents a certain amount of difficulty. It is adapted from the
    definition in USAFA Instruction 51-201, “Cadet Victim/Witness Assistance and Notification
    Procedures,” a definition that the Air Force considers too broad and may result in a higher count of sexual
    assault incidents than is actually warranted. The OIG (DoD) acknowledges that there is a certain amount
    of difficulty present in the definition employed⎯however, two important things must be considered; first,
    the OIG (DoD) survey definition lacked one important clause found in the USAFA Instruction 51-201,
    which states that consent is not given when “the person is alcohol impaired”; second, the definition
    supplied is not so broad as to suggest that the majority of incidents claimed were in fact improperly
    classified by the respondents as sexual assaults.
4
    The definition of rape employed is essentially the same as Article 120 of the Uniform Code of Military
    Justice (UCMJ).



                                                       [2]
       •   397 (68.6% of all respondents) indicated they had experienced sexual harassment
           (unwanted and uninvited sexual attention) in the form of sexual teasing, jokes,
           remarks, or questions while at the Academy. 262 (45.3%) indicated experiencing
           sexually suggestive looks, gestures, or body language, and 225 (38.9%) indicated
           receiving letters, telephone calls, emails, instant messaging or materials of a
           sexual nature. 204 (35.2%) indicated experiencing leaning over, cornering,
           pinching or brushing against, unwanted touching, and 129 (22.3%) indicated
           experiencing pressure for sexual favors.

       •   Cadets indicated that only 33 (18.6%) of the 177 sexual assault incidents were
           reported to the authorities.

       •   Cadets indicated that they experienced reprisal for reporting 14 (42.4%) of these
           incidents. (“Reprisal” was not defined in the survey.)

       •   143 incidents were recorded as not being reported to any authority. When asked
           why they did not report these incidents, victims indicated that embarrassment was
           a factor in 77 incidents (53.8 % of all non-reported incidents), the fear of
           ostracism by peers in 66 (46.2 %), the fear of some form of reprisal in 61 (42.7%),
           and the belief that nothing would be done about the sexual assault in 58 (40.6 %).5
           When all respondents (both sexual assault victims and cadets not indicating
           sexual assault) were asked “other than embarrassment or shame, what do you
           think is the number ONE reason why some victims at your academy do not report
           sexual assaults,” the top two reasons given were fear of ostracism by peers
           (32.8% of respondents), and fear of being punished for other infractions (26.8%).

       •   The respondents categorized offenders for 172 of the 177 incidents; the categories
           included cadets (both senior and non-senior to the respondents), civilians and
           military (both affiliated and not affiliated with the Academy), and unidentified
           persons. Fellow cadets were identified as the principal offender group (149 or
           86.1%) of all identified offenders; 65 of these were cadets who were senior to the
           victims.

       •   The respondents also indicated locations for 174 of the 177 incidents of sexual
           assault; 114 incidents (64.4%) occurred on the installation—65 in the dormitories
           and 49 elsewhere. Another 11 (6.2%) occurred off the installation, but at
           Academy-sponsored events, and 49 (27.7%) occurred off the installation, not at
           Academy-sponsored events.

Perceptions of Academy’s Response to Sexual Assaults
The survey also requested cadet views on:

       •   Previous command’s handling of sexual assault incidents: A slight majority—
           310 (53.5% of all respondents)—believed that the previous leadership did not
           handle sexual assault incidents appropriately, while 86 (14.9%) believed they did,
           and 182 (31.4%) did not know.

       •   Previous command’s efforts to curb sexual harassment: Almost half—267
           (46.1%)—believed that the previous command had made honest and reasonable
5
    Because cadets were allowed to select multiple reasons for not reporting, these numbers total above 143,
    the total number of incidents not reported.



                                                      [3]
    efforts to prevent or stop uninvited and unwanted sexual attention, while 310
    (53.5%) believed it had not.

•   Current command’s efforts to curb sexual harassment: Almost all—556
    (96.0%)—believed the current command was making honest and reasonable
    efforts to prevent or stop uninvited and unwanted sexual attention, while only 22
    (3.8%) believed it was not.

•   Cadet Safety: A majority—365 (63.0%)—expressed no fears about their
    personal safety, while 82 (14.2%) indicated their biggest fear was being hazed or
    unjustifiably harassed, 51 (8.8%) stated that it was that they would be sexually
    assaulted, and 27 (4.7%) stated that they would be non-sexually assaulted. Cadets
    also indicated overwhelmingly (over 90%) that they felt very safe or safe in every
    location on campus, except when alone on academy grounds during hours of
    darkness. (During hours of darkness, 68.9% felt very safe or safe; 20% felt
    somewhat safe; and 10.9% felt unsafe or very unsafe.)




                                        [4]
Table of Contents
Executive Summary                                                                                                                 1
    A. The Survey .............................................................................................................. 1
    B. The Data.................................................................................................................. 2
Table of Contents................................................................................................................ 1
APPENDIX. Interim Report on the United States Air Force Academy
             Sexual Assault Survey .................................................................................. 2
I.     Background ............................................................................................................. 2
II.    Methodology ........................................................................................................... 3
    A. Objectives ............................................................................................................... 3
    B. The Survey Instrument............................................................................................ 3
    C. Respondent Population ........................................................................................... 5
    D. Survey Administration ............................................................................................ 6
    E. The Data Set............................................................................................................ 7
    F. Research Limitations .............................................................................................. 9
III.   Survey Findings – Sexual Assault Incidents......................................................... 10
    A. Sexual Assault Incidents at the Academy............................................................. 10
    B. The Offenders ....................................................................................................... 12
    C. Sexual Harassment................................................................................................ 12
    D. Location of Sexual Assaults.................................................................................. 15
IV.    Survey Findings – Response to Sexual Assaults .................................................. 16
    A. Reporting of Sexual Assault Incidents.................................................................. 16
    B. Perceptions of Previous Command’s Response to Sexual Assaults ..................... 20
    C. Comments on Reasons for Not Reporting Sexual Assaults.................................. 33
    D. Comments Regarding Reprisal ............................................................................. 34
    E. Comments Regarding Cadet Safety ...................................................................... 34
    F. General Comments................................................................................................ 36
Attachment A – Survey Proctor Statement....................................................................... 42
Attachment B – Categories for Comment Analysis.......................................................... 44
Attachment C – Survey Instrument................................................................................... 46
Attachment D – Letter from Senate Governmental Affairs Committee ........................... 59
Attachment E – Letter from Senate Armed Services Committee ..................................... 60




                                                               [1]
APPENDIX. Interim Report on the United States
           Air Force Academy Sexual Assault
           Survey

I.          Background
            On February 24, 2003, Senator Susan M. Collins, Chairman, Senate
            Governmental Affairs Committee, and Senator Joseph I. Lieberman, Ranking
            Member, formally requested that the Inspector General of the Department of
            Defense (IG DoD) investigate allegations “that the U.S. Air Force Academy
            apparently has failed to take appropriate action in response to reports of sexual
            assault against women cadets.”6 The Senators noted that the Secretary of the Air
            Force, Dr. James E. Roche, had already announced the creation of a special panel
            to review the Air Force policies on sexual assault, with an emphasis on the United
            States Air Force Academy (USAFA). However, while the Senators commended
            the Secretary’s response, they stated in their letter their belief that an independent
            investigation was necessary, and that the IG DoD was “best suited to undertake
            such an investigation.”7

            On February 27, 2003, the Senator John Warner, Chairman, Senate Armed
            Services Committee and Senator Wayne Allard wrote to the Inspector General to
            request that he “review the work being done by the Air Force and others and to
            provide [his] findings and recommendations to [the Senate Armed Services
            Committee] at the appropriate time.”8

            In a response to Senators Collins and Lieberman on February 28, 2003, and in a
            meeting with Senators Warner and Allard on March 17, 2003, the IG DoD
            advised that in accordance with his statutory mandate to “give particular regard to
            the activities of the internal audit, inspection, and investigative units of the
            military departments with a view toward avoiding duplication and insuring
            effective coordination and cooperation,"9 he had already directed the Office of the
            Inspector General, Department of Defense (OIG DoD) Office of Investigative
            Policy and Oversight (IPO), to evaluate not only the ongoing Air Force review,
            but also to determine how allegations of sexual harassment and sexual assault are
            referred and handled in the other Service Academies. The IG DoD also stated
            that he would advise the Senators both of the results of our oversight evaluation of
            the Air Force review and of our own larger systemic review.

            As part of the data-gathering process, the OIG DoD evaluation team decided to
            administer a survey to determine the scope of sexual assaults at USAFA and to
            understand the opinions of female USAFA cadets regarding the Academy’s
            response to sexual assaults. Considering the long-term experience of the

6
    See Attachment D.
7
    Ibid.
8
    See Attachment E.
9
    Inspector General Act of 1978, as amended. (5 USC Appendix 1, §2)



                                                   [2]
            Academy Class of 2003 and indications that over half of that class’ female cadets
            did not have faith in Academy programs regarding sexual assault10, it became
            crucial to obtain the views of this class before they graduated. Therefore, OIG
            DoD personnel developed the survey and subsequently administered it to female
            cadets in all class years during the period of May 19 through 21, 2003. This
            report summarizes the results of the initial survey at the United States Air Force
            Academy.

II. Methodology

A.          Objectives
            The purpose of the survey was to determine:

                •    The scope of recent sexual assault incidents at the Academy

                •    The perceptions of female cadets concerning the Academy’s response to
                     sexual assaults, including factors such as reasons for not reporting,
                     likelihood of reprisal/ostracism for reporting assault, personal safety on
                     campus, cadet perceptions of the command’s handling of sexual assault,
                     and cadet perceptions of sexual assault support and training programs.

B.          The Survey Instrument

Development
            OIG DoD personnel developed the survey instrument11 in early May of 2003.
            The team developed the survey using the survey objectives as the benchmark for
            relevance. Due to the limited time available to develop the survey instrument, we
            decided to use survey questionnaires from the following two previously approved
            and administered DoD surveys as guidelines and templates for formulating
            questions for this sexual assault survey:

                •    “Department of Defense 1995 Sexual Harassment Survey,” Defense
                     Manpower Data Center (DMDC) Report Number 96-014 (December
                     1996).

                •    “Report on the Military Environment With Respect to the Homosexual
                     Conduct Policy,” Office of the Deputy Inspector General for Auditing
                     (DoD) Report Number D-2000-101.

            To ease and speed the process of data analysis, the evaluation team decided that
            the best option for the survey platform was an on-line survey. Additionally, the

10
      Article on USAFA Web site, “Superintendent addresses issue of sexual assault,” stated that 59 percent of
     the first-class (Class Year 2003) women cadets did not have faith in the Academy’s programs regarding
     sexual assault. The Superintendent indicated that this statistic came from the results of the January 2003
     USAFA sexual assault survey.
11
     See Attachment C.



                                                       [3]
            team decided that in order to make cadets comfortable about providing
            information on such a sensitive subject, we would need to provide total
            anonymity to survey participants. We accomplished this by using randomly
            generated, 4-digit access codes that were individually placed in sealed envelopes
            that participants themselves selected. While we did keep track of and record that
            attended, we ensured there was no way to associate the participants’ names with
            the access codes the cadets used.

            The survey had 27 questions, for a total of over 100 response items; 14 questions
            and about half of the response items were only applicable to those respondents
            who indicated that they experienced sexual assault. The survey also employed
            definitions of sexual assault and rape to assist participants in responding to critical
            questions:

                •    Sexual assault (adapted from USAFA Instruction 51-201, “Cadet
                     Victim/Witness Assistance and Notification Procedures,” April 18, 2000):
                          the touching of another without their consent in a sexual manner,
                          including attempts, in order to arouse, appeal to, or gratify the lust or
                          sexual desires of the accused, the victim, or both. Sexual assault
                          includes, but is not limited to, rape, sodomy, fondling, unwanted
                          touching of a sexual nature, and indecent sexual acts that the victim
                          does not consent to, or is explicitly or implicitly forced into. It is
                          immaterial whether the touching is directly upon the body of another or
                          is committed through the person’s clothing.12

                •    Rape (adapted from the Uniform Code of Military Justice (UCMJ),
                     Article 120, Rape):
                          an act of sexual intercourse with a female, by force and/or without her
                          consent (conscious or unconscious). Penetration, however slight, is
                          sufficient to complete the offense.

            When we conducted the beta test with USAFA cadets (see the “Refinement”
            section for details), several cadets indicated that they associated force with
            physical violence, and that if the offender was not violent, then the incident would
            not meet the legal definition of rape. There was a particular concern with a
            scenario involving a male having sexual intercourse with a female who was
            rendered unconscious due to alcohol consumption and thus not capable of
            resisting. Therefore, we felt it necessary to slightly modify the definition by
            adding “/or” and “(conscious or unconscious).”




12
      The definition of sexual assault employed presents a certain amount of difficulty. It is adapted from the
     definition in USAFA Instruction 51-201, “Cadet Victim/Witness Assistance and Notification
     Procedures,” a definition that the Air Force considers too broad and may result in a higher count of sexual
     assault incidents than is actually warranted. The OIG (DoD) acknowledges that there is a certain amount
     of difficulty present in the definition employed⎯however, two important things must be considered; first,
     the OIG (DoD) survey definition lacked one important clause found in the USAFA Instruction 51-201,
     which states that consent is not given when “the person is alcohol impaired”; second, the definition
     supplied is not so broad as to suggest that the majority of incidents claimed were in fact improperly
     classified by the respondents as sexual assaults.



                                                        [4]
Refinement
            To refine the survey questions and to help ensure that they would be understood
            as intended, the team assembled a focus group of OIG DoD unmarried female
            employees under the age of 2513, who did not have children, to take a draft survey
            and offer criticism. The focus group critiqued both the proctor statement and the
            survey questions, and the team adjusted the instrument accordingly.

            Next, the team coordinated with USAFA to identify 15 female cadets to beta test
            the survey. On May 16, 2003, three members of the IPO evaluation team visited
            USAFA to conduct the beta test. USAFA staff provided the team with a list of 15
            female cadets (all from class 2003) to take the beta test and be part of a “focus
            group.” Of the 15 cadets, 13 showed up to take the survey beta test.

            After briefing the cadets on the beta test process, the team walked them to the
            computer lab where the final survey would later be administered. We read the
            proctor statement to the beta test group, provided them with codes to access and
            complete the on-line survey. Following the beta test, the team reviewed the
            survey instrument with the test group. We considered their comments and
            suggestions and further adjusted the survey instrument to incorporate their
            feedback. (These cadets were excused from the subsequent final survey
            population.)

C.          Respondent Population
            The Academy’s total female cadet population was 659 at the time of the survey.
            Of these, 66 were unavailable to take the survey and had excused absences. Of
            those available (593), 12 did not take the survey and had unexcused absences.
            Thus, a total of 581 cadets took the survey (98.0% of all those available, and
            88.2% of the total population).

            The following is a complete breakdown by class year of the total female cadet
            population at the time of the survey:

                •   Class Year 2003 had a total population of 140. Of that number, 129
                    cadets participated in the survey and 11 did not, all of whom were excused
                    due to their prior participation in the survey beta test. This class had no
                    unexcused absences. (The total number of beta test participants was not
                    11 but 13; however, 2 of them chose to take the survey even though
                    excused.)

                •   Class Year 2004 had a total population of 154. Of that number, 117
                    cadets participated in the survey and 37 did not. Of the latter group, 33
                    had already left for summer research programs or associated leaves of
                    absence, 1 had out-processed and separated from the Academy, 1 had an
                    excused absence, and 2 cadets had unexcused absences.

                •   Class Year 2005 had a total population of 177. Of that number, 154
                    cadets participated in the survey and 23 did not. Of the latter group, 5 had
13
     The focus group also included one active duty Army major with previous experience at the U.S. Military
     Academy.



                                                     [5]
            already departed for civil engineering summer programs, 8 had separated
            from the Academy, 3 had excused absences, and 7 cadets had unexcused
            absences.

        •   Class Year 2006 had a total population of 188. Of that number, 181
            cadets participated in the survey and 7 did not. Of the latter group, 1
            foreign exchange cadet had already left to return home, 3 had separated
            from the Academy, and 3 cadets had unexcused absences.

D.   Survey Administration
     We intended initially to administer the survey to a statistical sample of 400 female
     USAFA cadets. However, when the OIG DoD team, along with the Deputy
     Inspector General for Inspections and Policy (OIG DoD), met with USAFA senior
     leadership to discuss survey administration, the Academy staff expressed their
     desire to open the survey to all female cadets that wanted to participate rather than
     limit participation to those in the statistical sample. In fact, they had already
     announced the survey to all female cadets. Subsequently, the Deputy Inspector
     General decided to administer the survey to all available female cadets while still
     maintaining the integrity of our stratified random sample. This was accomplished
     by using batches of access codes to allow separation of those women in our
     sample from participants not in the sample group. However, because the rate of
     participation in the survey was near to a complete census of available female
     cadets (581 of 593) we later decided to use all the responses in analyzing the data
     rather than just those from the initial statistical sample.

     During the period of May 19 through 21, 2003, the OIG DoD team administered
     the sexual assault survey at USAFA to all available female cadets. The following
     schedule shows hours of operation and the groups scheduled to take the survey:

        •   May 19, 8:00 AM – 5:00 PM, 1st Class Cadets

        •   May 20, 8:00 AM – 12:00 AM, 4th Class Cadets

        •   May 20, 4:00 PM – 8:00 PM, 2nd Class Cadets and 4th Class make-up
        •   May 21, 8:00 AM – 12:00 AM, 4th Class Cadets

        •   May 21, 4:00 PM – 8:00 PM, 3rd Class Cadets
     The USAFA Commandant’s office notified all female cadets about the survey
     through the cadet chain of command, via e-mail. Cadets were required to report
     to the survey location in Fairchild Hall during their scheduled time slots to receive
     a briefing from the OIG DoD team and take the survey. As cadets arrived, they
     reported to an OIG DoD team member outside the briefing room. The IG
     representative checked the cadets’ names off a student roster, and then allowed
     each cadet to select a sealed envelope containing an access code. Using the
     established proctor statement, an IG representative briefed the cadets on the
     purpose of the survey and emphasized that the survey was an important research
     tool that required each respondent to complete it honestly; and that the results of
     the survey would be completely anonymous. The IG representative also provided
     instructions regarding the on-line survey and explained that an IG team member


                                          [6]
     would be available if anyone wanted a private interview. Participants were then
     escorted into one of two adjacent computer labs, allowed to sit where they wanted
     as long as they left an empty workstation between themselves and another cadet.
     This was done to maximize privacy. As each cadet completed the survey and
     departed the computer lab, they were met by another OIG DoD representative
     who made a quick assessment whether any cadets appeared upset and needed to
     speak to someone from the counseling center, and provided written contact
     information for the IG DoD team and for the Defense Hotline.

E.   The Data Set

Format
     The OIG evaluators collected cadet responses using a hypertext markup language
     (HTML) survey questionnaire hosted on the OIG DoD internet Web site. By
     using Perl Script programming, Cadets’ responses were passed from the HTML
     questionnaire into a data file. The data file was then imported into a Microsoft
     Access database. OIG DoD statisticians imported the Access database into a
     Statistical Analysis System (SAS) software file that was used to compute the
     results based on various parameters. Investigative Policy and Oversight personnel
     also used the Access database for analysis of responses, to include textual
     comments.

Data Loss
     The Perl Script programming used to extract and capture textual responses was
     miscoded and did not function as intended for the memo field following Question
     25, ("If you did NOT report the sexual assault(s), why not," selection "l,"
     [Other]). Otherwise, both the non-textual responses and the related textual
     responses to the remaining questions were available for analysis with the
     exception of Question 2, (“Since you have been at the Academy, have you
     received any of the following kinds of UNINVITED AND UNWANTED sexual
     attention," selection "j" [Other sexual attention]). Although 30 respondents
     selected 2.j., no textual comments were provided. There were no programming
     errors associated with this anomaly.

Cleaning
     Of the 581 survey responses received, two of these were eliminated in their
     entirety. One response was blank other than for class year information, the other
     contained item responses that were so inconsistent that no reasonable
     reconciliation could be accomplished. This left a total of 579 usable survey
     responses.

     In these survey responses, 57 item responses out of a total of some 50,000 were
     recoded to resolve certain internal inconsistencies (either between two item
     responses or between item responses and comments). Whenever a preponderance
     of the information provided in the record supported one interpretation, the
     inconsistent item response was changed to reflect that view. For example, if a
     respondent indicated in Question 2 that she had never been sexually assaulted
     while at the Academy, but then contradicted this answer in Question 11 and


                                        [7]
            supplied specific details regarding one or more incidents of sexual assault in
            Questions 13 through 25, her answer in Item 2a was recoded to coincide with
            responses to subsequent questions. If no clear preponderance could be
            determined in certain situations, the inconsistent items were recoded as “no
            response.”

Written Responses
            The survey allowed respondents to provide textual comments in 11 questions. In
            eight of these, questions provided the answer choice “other” and allowed
            respondents to elaborate on this answer choice. The team was able to extract data
            for 6 of the 8 questions, yielding 253 written comments. The other three
            questions requested respondents to comment on specific topics. Respondents
            provided 481 comments regarding safety (83%), 178 comments on training
            (31%), and 286 general comments (49%), for a total of 945 comments. Overall,
            we received 1,198 textual comments for analysis.
            In order to analyze the comments, the team placed them into database tables based
            on the topic of the comment and then began a process of categorizing the
            comments. As previously mentioned, we only received data for nine of the eleven
            textual fields. Four of the nine yielded nine or fewer written comments and,
            therefore, did not need further breakdown. The textual comments from the
            remaining five fields were sorted by question topic into tables covering cadet
            safety (questions 6e and 7), incident reporting (Question 26j), sexual assault
            prevention and awareness training (Question 27), and general comments (section
            5 of the survey). The next step of analysis was to categorize the comments in
            each table. (For a listing of these categories and their description, see Attachment
            B)

            After categories were developed, the team analyzed the comments and selected all
            categories that applied. We then developed queries to further sort the comments
            based on the different categories within each table.

Reliability of Data
            Two of the 581 survey responses collected were discarded as unusable (one
            contained an answer to only one question; the other was so inconsistent it was
            beyond reconciliation) leaving 579 usable responses (99.7 percent).

            Within this set of responses, all common questions were answered by at least 571
            of the 579 cadets. With one exception, the cadets all answered at least 50 out of
            the 60 (83.3 percent) of the common questions on the survey (that is those
            questions that applied both to cadets who had experienced no sexual assaults as
            well as to those who had). A standard criterion for determining the completeness
            of a survey response is a question completion rate of 80 percent.14 The 83.3
            percent completion rate of our survey clearly meets this standard.

            While some responses had minor inconsistencies that we recoded, in nearly every
            survey project, items are sometimes misread or terms are misunderstood.
            Additionally, respondents sometimes quickly review the early items in a survey
14
     The American Association of Public Opinion Research, 2000, Standard Definitions: Final Dispositions of
     Case Codes and Outcome Rates for Surveys, Ann Arbor, Michigan: AAPOR, p. 28.



                                                     [8]
            and as a result make mistakes due to haste. This is common to virtually all survey
            research and should not be viewed as compromising the reliability of this data set.

            The reliability of this data is corroborated by the OIG DoD team’s on-site
            observations of the demeanor of the cadets when completing the survey. Cadets
            gave no outward signs that led the team to believe that cadets were taking the
            survey in a manner that was either flippant or deliberately untruthful. In similar
            fashion, assessment of the respondents’ written comments overwhelmingly
            indicates serious thought about the issues addressed in the survey, and further
            suggests that they were both sincere and truthful in taking the survey.

            The content of the cadets’ responses is also generally consistent with that of the
            detailed reviews of Air Force Office of Special Investigations (AFOSI) criminal
            investigative case files with regard to some of the reasons for not reporting sexual
            assaults.

            In general, there were no reasons identified that would indicate the survey data
            should be considered as anything but reliable. While it is impossible to prove the
            truthfulness of survey results, the evidence suggests that these data are reliable.

F.          Research Limitations
            The usable survey results represent a census of 579 female cadets in a total
            population of 659 (87.9% of the female cadets at the Academy). It should be
            noted that because the survey results are descriptive of the responding female
            cadets, the appropriate analytical method is enumeration. The results are from a
            census, not a random sample, so no probabilistic methods were employed. The
            results were not statistically projected beyond the respondents. The results of the
            surveys from the 579 cadets do not project to the 78 who did not participate.
            However, the number of incidents and the number of cadets’ perceptions do
            represent the minimum numbers for all 659 cadets.

            It is also important to note that the responses of the cadets were taken at face
            value. OIG DoD personnel did not perform independent verifications of their
            responses, and thus there is an underlying assumption that the responding female
            cadets understood the survey questions and answered them honestly. As
            mentioned earlier, the data gives no reason to believe this assumption is false, but
            it is impossible to establish its truth with perfect certainty.

            It is also impossible to estimate the number of sexual assaults that may have
            occurred against female cadets who left the Academy prior to the administration
            of the survey and who were originally members of one of the year groups
            surveyed15. The survey allowed cadets to record data on up to four incidents of
            sexual assault. Nine cadets indicated they had experienced four or more
            incidents, so there may be a small number of incidents experienced, but not
            recorded.



15
      Data from the investigative case review for female cadets in these same class years (2003 to 2006)
     indicate that seven sexual assaults (five of which alleged rape) have been reported by female cadets who
     had already departed the Academy and were not present for the survey.



                                                       [9]
            In addition, to protect the anonymity of the respondents and to encourage honest
            responses to very sensitive questions, the survey instrument included very few
            demographic items for respondents. As a result, any similarities and variance
            among squadrons or other sub-groups of cadets at the Academy (with the
            exception of class year) cannot be identified.

III. Survey Findings – Sexual Assault Incidents
            This section details the findings of the survey concerning the scope of recent
            sexual assault incidents at the Academy.

A.          Sexual Assault Incidents at the Academy
            Of the 579 usable responses, 109 cadets (19%) indicated that they were the
            victims of at least one sexual assault since becoming an Air Force Academy cadet
            (these cadets reported a total of at least 177 sexual assault incidents). Of those
            who indicated they were sexually assaulted, 43 (7% of the total 579 respondents)
            indicated the sexual assault included the offense of rape or attempted rape. Table
            1 contains a breakdown of the responses by class year.16

           Table 1 - Breakdown of Sexual Assaults by Class Year of Graduation
                  Total     Total Sexual                      Rape or
      Class                                  Percent of                     Percent of
                 Usable       Assault                       Attempted
      Year                                 Respondents                    Respondents
               Responses      Victims                      Rape Victims
      2003         128           31            24.2%             15           11.7%
      2004         117           32            27.4%             10           8.5%
      2005         154           27            17.5%             11           7.1%
      2006         180           19            10.6%              7           3.9%
      Total        579          109            18.8%             43           7.4%

       Two other factors influence these figures. Cadets in the different class years have
       spent different amounts of time at the Academy; those with longer tenures (the class
       of 2003) have had more exposure to academy life. Also, some cadets who had
       experienced an assault early in their academic career may have left the Academy
       (voluntarily or involuntarily) and, therefore, would not be available with their
       classmates to respond to the survey.

       In order to compare the rates on a common basis, we established a common
       framework of incidents per 100 cadets and calculated adjusted rates accordingly.
       Table 2 shows the adjusted numbers of incidents by class year for calendar year
       2002.17 These figures have been adjusted for the months at the Academy of the
       different cadet classes as well as the numbers of respondents. Departing the

16
     Table 1 corresponds with survey questions one, 11 and 12.
17
      Calendar year 2002 was selected because it is the longest time frame that all four classes had in common.
     Based on incident reports for 2002, it is possible to compare rates for the same time frame but at different
     stages of the cadets’ careers at USAFA (with the caveat that the class of 2006 data is for 5.5 months, not
     10, and had to be pro-rated up to 10 months for comparability).



                                                       [ 10 ]
       Academy following an incident could not be eliminated, but focusing on the data
       from a recent year should minimize the effect of this factor.



           Table 2 - Sexual Assault Incidents per 100 Survey Respondents
                                                             Class Year
                                                   2003    2004     2005                            2006
Calendar Year 2002 Sexual Assault Incidents          8       14       22                              19
Months at the Academy during CY 2002                10       10      10                              5.5
Total Respondents                                   128     117      154                             180
Number of Annual Sexual Assault Incidents per
100 Respondents for Time at USAFA                    6       12      14                               19

       Normalized sexual assault rates indicate that first-year/freshmen (Class of 2006)
       cadets have highest rate of sexual assault while forth-year cadets/seniors (Class of
       2003) have lowest rate of sexual assault.

       A total of 68 respondents indicated single incidents of sexual assault, while 41 others
       indicated multiple incidents of sexual assault. Among the 41, 23 cadets indicated that
       they had been sexually assaulted twice (46 incidents), 9 cadets indicated they were
       sexually assaulted 3 times (27 incidents), and 9 cadets indicated they were sexually
       assaulted 4 or more times (36 or more incidents), amounting to a total of at least 177
       separate incidents of sexual assault during the period from 1999 to May 2003. Table
       3 reflects a breakdown of reported sexual assault incidents by class status for each
       class year and shows that more assaults have occurred early in a cadet’s Academy
       career.

               Table 3 - Reported Sexual Assault Incidents by Class Year Status
                                      Spring                            Spring
                Cadet Basic                             Spring
                                     Freshman                           Junior      Spring
     Class      Training/Fall                         Sophomore                                   Total
                                      Yr/Fall                           Yr/Fall     Senior
     Year       of Freshman                             Yr/Fall                                 Incidents
                                    Sophomore                           Senior        Yr
                     Yr                                Junior Yr
                                        Yr                                Yr
     2003             10a               19b                10c             8d          1e          48
     2004             13b                20c               14d            1 e*                     48
     2005             13c               22d                7 e*                                    42
     2006             19d               12e*                                                       31
     Total            55                 73                    31          9           1          16918

Notes: a= 1999, b= 2000, c= 2001, d= 2002, e=2003 (These years indicate the year the
sexual assault occurred).
* Denotes only Spring semester data reflected (survey conducted in May 2003)


18
      Eight reported incidents do not fall within this chart: Three incidents had no information on year of
     occurrence. Five incidents do not fall into the timeframe during which the cadets would normally attend
     the Academy, but they could possibly have happened while they attended the Academy Prep School or
     other factors such as administrative turn back for academic or other reasons.



                                                      [ 11 ]
B.          The Offenders
            The respondents categorized the offenders for 172 of the 177 incidents including
            cadets (both senior and non-senior to the respondents), civilians not affiliated with
            the installation, and several unidentified persons. Three categories each had three
            or fewer offenders indicated: staff or faculty member, civilians assigned to the
            installation, and military assigned to the installation. (Actual numbers for each of
            these categories are not reported in order to ensure the anonymity of respondents.)
            Respondents did not provide offender information for 5 of the 177 incidents.
            Because one sexual assault incident involved multiple offenders, a total of 173
            offenders were identified. Fellow cadets were the principal offender group (149
            or 86.1% of all identified offenders); 65 were cadets who were senior to the
            victim, while 84 were cadets who were not senior. Table 419 shows the
            breakdown of offenders.

                                  Table 4. Sexual Assault Offenders
                                 Category of Offender           Total                  Percentage
                          Cadet who was senior to me             65                      37.6%
                          Cadet who was not senior to me         84                      48.6%
                          Non-affiliated civilian                 9                       5.2%
                          Unidentified person                     7                       4.0%
                          Non-installation military person        4                       2.3%
                          Staff or faculty member, Civilian
                          assigned to installation, Other         4                       2.3%
                          installation military person
                                           Total                17320                     100%

C.          Sexual Harassment
            Survey respondents were also asked whether they had received any uninvited and
            unwanted sexual attention since they had been at the Academy. A total of 397
            cadets (68.6%) had experienced sexual teasing, jokes, or remarks, more than half
            of them indicated multiple incidents. There was also a significant occurrence of
            sexually suggestive looks, gestures, or body language, as well as sexual whistles,
            calls, hoots, and yells. Table 5a shows that 12421 cadet respondents indicated that
            between 176 and 319 of those incidents of uninvited and unwanted sexual
            attention were also cases of “actual or attempted sexual assault.”

            Respondents who answered Question 11 affirmatively (that since becoming a
            cadet they had been sexually assaulted) have higher numbers of other forms of

19
     Corresponds with Question 16 of survey questionnaire at Attachment C
20
     One incident had two categories of offenders recorded.
21
      This figure of 124 responses regarding sexual assault for Question 2 exceeds the 109 affirmative
     responses to Question 11 by 15 (as evident in Table 5b). However, unlike Question 11—which asked,
     “have you been a victim of sexual assault while at the Academy?”—Question 2 included the word “or
     attempted sexual assault.” The inclusion of “attempted sexual assault” in this question may explain why
     124 respondents indicated affirmative responses here while only 109 indicated affirmative responses to
     Question 11.



                                                      [ 12 ]
           unwanted sexual attention when compared to the female cadets that answered
           Question 11 negatively. Tables 5a through 5d22 show a breakdown of this data
           according to various groups of cadets.

           Table 5a – All Respondents – Frequency of Unwanted Sexual Attention
                                                       6 or
 Type of Uninvited, Unwanted Sexual       1 to2 3 to 5 more                                    No
             Attention              Never times times times                             #   Response   %
a. Actual or attempted sexual
                                                 455      101       21       2      124         0      21.4
   assault
b. Pressure for sexual favors                    449          91    24       14     129         1      22.3
c. Leaning over, cornering,
   pinching or brushing against,                 374      124       53       27     204         1      35.2
   unwanted touching
d. Sexually suggestive looks,
                                                 316      141       54       67     262         1      45.3
   gestures or body language
e. Letters, telephone calls, emails,
   instant messaging or materials of             354      116       53       56     225         0      38.9
   a sexual nature
f. Pressure for dates                            392      116       41       30     187         0      32.3
g. Sexual teasing, jokes, remarks or
                                                 180      155       77      165     397         2      68.6
   questions
h. Sexual whistles, calls, hoots or
                                                 279      166       62       69     297         3      51.3
   yells
i. Attempts to get your
   participation in any other sexual             477          72    16       12     100         2      17.3
   activities
j. Other sexual attention (Specify
                                                 494          17    4        9      30          0      5.2
   below – do not use commas)


       Table 5b - Cadets NOT Sexually Assaulted – Frequency of Unwanted Sexual
                                Attention (470 cadets)
                                                                                             6 or
      Type of Uninvited, Unwanted Sexual                           1 to2      3 to 5        more     No
                  Attention                             Never      times      times         times Response
                                                        455         1523        0             0       0
a. Actual or attempted sexual assault
                                                       96.8%       3.2%       0.0%          0.0%    0.0%
                                                        403          58         6             2       1
b. Pressure for sexual favors
                                                       85.7%       12.3%      1.3%          0.4%    0.2%
c. Leaning over, cornering, pinching or                 345          78        32            15       0
brushing against, unwanted touching                    73.4%       16.6%      6.8%          3.2%    0.0%


22
     Corresponds with Question 2 of survey questionnaire at Attachment C
23
     See “Cleaning” in Section E of this appendix for an explanation of this anomaly.



                                                     [ 13 ]
d. Sexually suggestive looks, gestures or         288     110     35       37        0
body language                                    61.3%   23.4%   7.4%     7.9%     0.0%
e. Letters, telephone calls, emails, instant  319          89      33       29       0
messaging or materials of a sexual nature    67.9%       18.9%   7.0%     6.2%     0.0%
                                              339          85      26       20       0
f. Pressure for dates
                                             72.1%       18.1%   5.5%     4.3%     0.0%
g. Sexual teasing, jokes, remarks or          165         131      60      113       1
questions                                    35.1%       27.9%   12.8%    24.0%    0.2%
                                              248         135      44       41       2
h. Sexual whistles, calls, hoots or yells
                                             52.8%       28.7%   9.4%     8.7%     0.4%
i. Attempts to get your participation in any 421           38       6        3       2
other sexual activities                      89.6%       8.1%    1.3%     0.6%     0.4%
j. Other sexual attention (Specify below -        420     14       1        7       28
do not use commas)                               89.4%   3.0%    0.2%     1.5%     6.0%

  Table 5c - Cadets Sexually Assaulted – Frequency of Unwanted Sexual Attention
                                   (109 Cadets)
                                                                           6 or
   Type of Uninvited, Unwanted Sexual                    1 to2   3 to 5   more     No
               Attention                         Never   times   times    times Response
                                                    0      86      21     2         0
a. Actual or attempted sexual assault
                                                 0.0%    78.9%   19.3% 1.8%       0.0%
                                                   46      33      18    12         0
b. Pressure for sexual favors
                                                 42.2%   30.3%   16.5% 11.0%      0.0%
c. Leaning over, cornering, pinching or            29      46      21    12         1
brushing against, unwanted touching              26.6%   42.2%   19.3% 11.0%      0.9%
d. Sexually suggestive looks, gestures or          28      31      19    30         1
body language                                    25.7%   28.4%   17.4% 27.5%      0.9%
e. Letters, telephone calls, emails, instant   35          27      20    27         0
messaging or materials of a sexual nature    32.1%       24.8%   18.3% 24.8%      0.0%
                                               53          31      15    10         0
f. Pressure for dates
                                             48.6%       28.4%   13.8% 9.2%       0.0%
g. Sexual teasing, jokes, remarks or           15          24      17    52         1
questions                                    13.8%       22.0%   15.6% 47.7%      0.9%
                                               31          31      18    28         1
h. Sexual whistles, calls, hoots or yells
                                             28.4%       28.4%   16.5% 25.7%      0.9%
i. Attempts to get your participation in any   56          34      10     9         0
other sexual activities                      51.4%       31.2%   9.2% 8.2%        0.0%
j. Other sexual attention (Specify below -         74      3       3        2       27
do not use commas)                               67.9%   2.8%    2.8%     1.8%    24.8%




                                               [ 14 ]
        Table 5d - Rape/Attempted Rape Victims – Frequency of Unwanted Sexual
                                 Attention (43 Cadets)
                                                                                      6 or
      Type of Uninvited, Unwanted Sexual                         1 to2      3 to 5   more     No
                  Attention                           Never      times      times    times Response
                                                        0         33          8        2       0
a. Actual or attempted sexual assault                0.0%       76.7%       18.6%    4.7%    0.0%
                                                       17         20          8        9       0
b. Pressure for sexual favors                        39.5%      46.5%       18.6%    20.9%   0.0%
c. Leaning over, cornering, pinching or                13         15          7        7       1
brushing against, unwanted touching                  30.2%      34.9%       16.3%    16.3%   2.3%
d. Sexually suggestive looks, gestures or       9                 12          6        15      1
body language                                20.9%              27.9%       14.0%    34.9%   2.3%
e. Letters, telephone calls, emails, instant   12                 12          7        12      0
messaging or materials of a sexual nature    27.9%              27.9%       16.3%    27.9%   0.0%
                                               20                  9          7         7      0
f. Pressure for dates                        46.5%              20.9%       16.3%    16.3%   0.0%
g. Sexual teasing, jokes, remarks or            5                 10          6        21      1
questions                                    11.6%              23.3%       14.0%    48.8%   2.3%
                                               11                 11          8        12      1
h. Sexual whistles, calls, hoots or yells    25.6%              25.6%       18.6%    27.9%   2.3%
i. Attempts to get your participation in any   19                 14          5         5      0
other sexual activities                      44.2%              32.6%       11.6%    11.6%   0.0%
j. Other sexual attention (Specify below -             28          2          3        1       9
do not use commas)                                   65.1%       4.7%       7.0%     2.3%    20.9%


D.         Location of Sexual Assaults
           Respondents provided location information for 174 of the 177 sexual assault
           incidents. 64.4 percent (114) of the 177 sexual assaults occurred on the
           installation and more than half of those incidents (65 of the 114) were in the
           dormitory; the other 49 were committed on base in places other than a dormitory.
           The remaining 33.9 percent of the sexual assaults (60 of 177) occurred off base;
           most of which (49) were at events not sponsored by the Academy and 11 occurred
           at Academy sponsored events. In order words, 70.6 percent of the sexual assaults
           indicated by respondents occurred either on base or at Academy-sponsored events
           off base. Table 624 reflects a breakdown by incident and location of occurrence.




24
     Corresponds with Question 15 of survey questionnaire at Attachment C



                                                   [ 15 ]
                           Table 6 - Total Sexual Assaults by Location
         Location           1st Incident 2d Incident 3d Incident 4th Incident          Total
                                                                                         65
     On base (in dorm)            42               15                5        3
                                                                                       36.7%
      On base (not in                                                                    49
                                  25               15                6        3
          dorm)                                                                        27.7%
         Off base
                                                                                         11
        (Academy                   7                1                2        1
                                                                                        6.2%
        sponsored)
       Off base (not
                                                                                         49
         Academy                  33               10                4        2
                                                                                       27.7%
        sponsored)
                                                                                          3
       No Response                 2                0                1        0
                                                                                         1.7
           Total                 109               41               18        9          177


IV. Survey Findings – Response to Sexual
    Assaults
           This section details the findings of the survey regarding the perceptions of female
           cadets concerning the Academy’s response to sexual assaults, including factors
           such as personal safety, attitudes of leadership towards the issue of sexual assault
           and sexual harassment, attitudes toward reporting sexual assaults, and likelihood
           of suffering repercussions for reporting an incident of sexual assault.

A.         Reporting of Sexual Assault Incidents
           Of the 177 sexual assault incidents recorded by 109 respondents, 33 incidents
           were reported by 29 respondents who provided data on one or more authorities to
           which the incident was reported. This allowed respondents to indicate several
           different authorities for one incident. The highest number of incidents (17 of 33
           (52%)) were reported to Air Officers Commanding (AOCs). Fifteen (45 %) were
           reported to the Academy counseling center, 12 (36%) were reported to Academy
           staff and faculty members, and 10 (30%) were reported to the military hotline run
           by cadets. Five (15%) were reported to the Air Force Office of Special
           Investigations (AFOSI). Table 725 lists the total number of incidents reported to
           each authority.




25
     Corresponds with Question 18 of survey questionnaire at Attachment C



                                                   [ 16 ]
                          Table 7 - Reported Sexual Assaults
                                                    Number of
                                                     Citations       % of 33 Total
         Authorities to which sexual assaults         for each        Incidents
                      were reported                  authority        Reported
    a. Air Officers Commanding (AOC)                     17             51.5%
    b. Academy staff & faculty member (Not
                                                         12              36.4%
    AOC)
    c. Military hotline run by cadets/midshipmen         10              30.3%
    d. Military hotline NOT run by
                                                          1               3.0%
    cadets/midshipmen
    e. Person in cadet/midshipmen chain of
                                                          6              18.2%
    command
    f. Upperclassman not in chain of command              9              27.3%
    g. Academy Counseling Center                         15              45.5%
    h. Installation Medical Personnel                     9              27.3%
    i. Off-Installation Medical Personnel                 2               6.1%
    j. Civilian Counseling Center                         1              3.0%
    k. AFOSI                                              5              15.2%
    l. Security Forces                                    3              9.1%
    m. Academy Inspector General’s Office                 1               3.0%
    n. Installation chaplain/clergy                       4              12.1%
    o. Off-installation chaplain/clergy                   0               0.0%
    p. Civilian Law Enforcement Agency                    2               6.1%
    r. Other (comments reflected friends)                 5              15.2%

     The respondents also indicated that either AFOSI or civilian law enforcement
     authorities conducted investigations into a total of nine sexual assault incidents
     (six single or first incidents, and three second incidents). Some of the respondents
     (16) also indicated that no criminal investigation was conducted because they
     chose not to report the sexual assault to law enforcement officials, even though
     the incident was reported to some other authority at the Academy.

Reprisal for Reporting Sexual Assaults
     As previously stated, 29 of the 109 cadets who answered that they experienced
     one or more sexual assault incidents indicated that they reported the assault to
     authorities. Twelve of the 29 (41.4%) indicated that they experienced reprisal
     from another cadet, authorities at the USAFA, or other military authority. Eight
     of the 12 cadets who experienced reprisal also indicated that their peers had
     ostracized them. One additional cadet reported being ostracized while not
     suffering reprisal from authorities. Sixteen reported no repercussions.

     Of the 43 who indicated that they were victims of actual or attempted rape, 13
     reported at least one incident, 7 of those 13 (53.8%) indicated that there was
     reprisal for at least one incident, and 5 of those 7 stated they were also ostracized
     by their peers. Six reported no repercussions. Because several of these 43 cadets
     recorded multiple incidents of sexual assault, with at least one of them including


                                         [ 17 ]
            actual or attempted rape, we could not determine whether or not the incident they
            reported to authorities included actual or attempted rape. Therefore, we identified
            the 26 respondents who indicated that they had experienced a single sexual assault
            incident and that it involved actual or attempted rape. Among the 26, 6 indicated
            that they reported the incident to one or more person at USAFA or other military
            authorities. Among the six, three (50%) indicated that they had suffered reprisal26
            from another cadet, USAFA, or other military authority. Two of those three
            reported being ostracized by their peers. Three reported no repercussions.

            Table 827 summarizes reprisal for reporting sexual assaults and all incidents
            recorded by cadets.

                   Table 8 –Reprisal for Reporting Sexual Assaults
                                 All        Cadets
                               Cadets     with a Q12      Cadets
                             Indicating Incident*      with Single                            All Incidents
                               Sexual     Plus Other       Q12                                Recorded by
                              Assaults     Incidents    Incident*                                Cadets
Number of Cadets/Incidents       109           43           26                                     177
Reported to Authorities          29            13            6                                      33
Indicated Reprisal            12/41.4%      7/53.8%       3/50 %                                   1428
Indicated Being Ostracized        9             5            2                                      11
Indicated No Repercussion        16             6            3                                      18
* “Q12 Incident” refers to Question 12, which allowed sexual assault victims to indicate whether or not
their sexual assault included actual or attempted rape.

            According to survey responses, of the 177 sexual assault incidents, the victims did
            not report 14329 sexual assaults. This is consistent with the fact that rape and
            sexual assault are nationally underreported phenomena among women at colleges
            and universities.30 (The Air Force Academy concurs with this fact as well.31)

            The respondents were asked to select all reasons that applied for not reporting
            each incident of sexual assault; therefore, cadets could select multiple reasons for

26
      The incident was treated as involving reprisal if the cadet answered yes to any or all of questions 24a
     (reprisal from upperclassmen in my chain of command), 24b (reprisal from upperclassmen NOT in my
     chain of command), 24c (reprisal from Academy staff or faculty), 24d (reprisal from command officials
     (AOC, TAC, Company Commander), or 24f (punished unfairly for other unrelated infractions/violations)
     for that incident.
27
     Corresponds with questions 23 and 24 of survey questionnaire at Attachment C.
28
      One of the 177 incidents involved being ostracized but not suffering reprisal from authorities. The final
     breakdown is: 10 incidents involved both reprisal and being ostracized; 4 involved reprisal but not being
     ostracized; and one involved being ostracized but not suffering reprisal. The remaining 18 incidents had
     no repercussions indicated.
29
      Respondents indicated that they reported 33 of the 177 incidents; one respondent did not answer this
     question.
30
      See Bonnie Fisher, et al. “The Sexual Victimization of College Women” (Washington, DC: Department
     of Justice, December 2000): pp. 23-26.
31
 See USAFA Instruction 51-201, “Cadet Victim/Witness Assistance and Notification Procedures,” April
 18, 2000, p. 21: “It is well recognized that sexual crimes are extremely underreported because of victim’s
 fears about the reactions of others to their reporting.”



                                                       [ 18 ]
           each incident. The reason most victims indicated for not reporting sexual assaults
           was embarrassment (77 incidents for 53.8 percent of non-reported incidents). The
           second highest reason for not reporting was fear of being ostracized by their peers
           (66 incidents for 46.2 percent of non-reported incidents). The third highest
           response was a belief that nothing would be done about the sexual assault (58
           incidents for 40.6 percent of non-reported incidents). There were 61 incidents in
           which sexual assault victims selected at least one of the four forms of reprisal
           (items a through d in Table 9), making fear of reprisal another significant reason
           why victims did not report their assaults. Table 932 provides further details
           regarding why the alleged victims did not report sexual assaults and the associated
           percentage of the 143 non-reported incidents.

         Table 9 - Cadets Sexually Assaulted—Reasons for Not Reporting Incidents
                                                                           Number of
                             Reasons for not reporting:
                                                                           Incidents*
                                      33
     a. Feared some form of reprisal                                        61/42.7%
     b. Feared being ostracized by peers                                    66/46.2%
     c. Feared being punished for other infractions/violations I committed  34/23.8%
     d. Believed that nothing would be done about the sexual assault        58/40.6%
     e. Not aware of reporting procedures                                   23/16.1%
     f. Embarrassment                                                       77/53.8%
     g. Fear that a significant other would find out                         14/9.8%
     h. Other                                                               39/27.3%
* As cadets could select multiple reasons for not reporting a single incident, the numbers in this column
total above 143, the total number of incidents not reported.

           Additionally all survey respondents (not just victims of sexual assault) were then
           asked for their perspective on the number one reason, excluding embarrassment or
           shame, why some sexual assault victims do not report. A total of 190 (32.8%)
           selected “Feared being ostracized by peers” as the number one reason victims do
           not report sexual assaults. The second highest response selected was “fear of
           being punished for other infractions/violations committed,” with 155 (26.8%).
           These reasons are consistent when comparing responses of cadets who indicated
           they were sexually assaulted and those that were not, as shown in Table 10.34




32
     Corresponds with Question 25 of survey questionnaire at Attachment C.
33
     Within these 61 incidents, cadets indicated the fear of reprisal from upperclassman in their chain of
      command for 34 incidents, the fear of reprisal from upperclassmen not in their chain of command for
      37 incidents, the fear of reprisal from Academy staff or faculty for 17 incidents, and the fear of reprisal
      from command officials (AOC, TAC, or Company Commander) for 35 incidents. (As cadets could
      indicate multiple specific forms of feared reprisal as reasons for not reporting a single incident, these
      numbers total above 61, the total number of incidents for which some form of feared reprisal was
      indicated as a reason for not reporting).
34
     Corresponds with Question 26 of survey questionnaire at Attachment C.



                                                       [ 19 ]
 Table 10 - All Respondents - Reasons for Not Reporting Sexual Assaults Incidents
 Excluding Embarrassment or Shame–Comparing Respondents Sexually Assaulted
                                 and Not Sexually Assaulted
                                             Respondents Respondents
  Number one reason for not reporting
                                                Sexually    Not Sexually    Total
          sexual assault incidents
                                               Assaulted     Assaulted
 a. Feared some form of reprisal:35             19/3.3%       36/6.2%     54/9.3%
 e. Feared being ostracized by peers           35/32.1%      155/33.4%   190/32.8%
 f. Feared being punished for other
                                               28/25.7%      127/27.3%   155/26.8%
 infractions/violations I committed
 g. Believed that nothing would be done
                                               15/13.8%       42/9.0%     57/9.8%
 about the sexual assault
 h. Not aware of reporting procedures            1/0.9%        2/0.4%      3/0.5%
 i. Fear that a significant other would
                                                 1/0.9%        4/0.9%     5/0.9%
 find out.
 j. Other                                       10/9.2%       98/21.1%   108/18.7%
 No Response                                     0/0.0%        6/1.2%      6/1.0%
 Total Responses                                   109           464         579


B.         Perceptions of Previous Command’s Response to Sexual
           Assaults
           The respondents were asked how much they agreed or disagreed with certain
           statements related to what the Academy’s leaders had done prior to January 2003
           to prevent sexual assault and to encourage reporting. Table 11a36 reflects the
           results.

             Table 11a - All Respondents – Views on Previous Academy Leaders
 Prior to January 2003, the                      Strongly                                 Don’t              No
 Academy’s leaders…                               Agree         Agree      Disagree       Know            response
 a. handled sexual assault cases                    19           67           310          182               1
 appropriately                                     3.3%        11.6%         53.5%        31.4%            0.2%



35
     The cadets indicated the following specific forms of reprisal as the top reason for not reporting:
                                                                Respondents        Respondents
     Number one reason for not reporting sexual assault
                                                                 Sexually          Not Sexually            Total
                        incidents
                                                                 Assaulted          Assaulted
     a. from upperclassmen in my chain of command                  4/3.7%             8/1.7%               12/2.1%
     b. from upperclassmen NOT in my chain of command              5/4.6%             9/1.9%               14/2.4%
     c. from Academy staff or faculty                              2/1.8%             3/0.6%                5/0.9%
     d. from command officials (AOC, TAC, Company
                                                                    8/7.3%             16/3.4%             24/4.1%
     Commander)

36
     Corresponds with Question 8 of survey questionnaire at Attachment C.



                                                      [ 20 ]
b. in general, punished offenders       25          66      266        221         1
appropriately                          4.3%       11.4%    45.9%      38.2%      0.2%
c. implemented sufficient
programs to prevent sexual              96         238      172         70         3
assaults                              16.6%       41.1%    29.7%      12.1%      0.5%
d. increased awareness and
                                       113         203      216        45          2
encouraged victims and others to
                                      19.5%       35.1%    37.3%      7.8%       0.3%
report sexual assaults
e. effectively assisted sexual          31          85      254        208         1
assault victims                       5.4%        14.7%    43.9%      35.9%      0.2%
f. treated sexual assault victims       27          70      263        216         3
fairly                                4.7%        12.1%    45.4%      37.3%      0.5%
g. did not tolerate sexual assaults     75         183      176        143         2
                                      13.0%       31.6%    30.4%      24.7%      0.3%
h. had a good process for reporting     59         134      243        141         2
sexual assaults                       10.2%       23.1%    42.0%      24.4%      0.3%

      Tables 11b, c, and d, reflect the same question broken out by respondent groups
      who indicated that they were sexually assaulted and those who indicated that they
      were not.

     Table 11b - Cadets Not Sexually Assaulted – Views on Academy Leaders
Prior to January 2003, the            Strongly                       Don’t       No
Academy’s leaders…                     Agree      Agree   Disagree   Know     response
a. handled sexual assault cases         17          53      239       160        1
appropriately                          3.6%       11.3%    50.9%     34.0%     0.2%
b. in general, punished offenders       21          53      211       184        1
appropriately                          4.5%       11.3%    44.9%     39.1%     0.2%
c. implemented sufficient
                                        83         199      125        61        2
programs to prevent sexual
                                      17.7%       42.3%    26.6%     13.0%     0.4%
assaults
d. increased awareness and
                                        96         171      158       43         2
encouraged victims and others to
                                      20.4%       36.4%    33.6%     9.2%      0.4%
report sexual assaults
e. effectively assisted sexual          27          67      194       181        1
assault victims                       5.7%        14.3%    41.3%     38.5%     0.2%
f. treated sexual assault victims       24          54      200       190        2
fairly                                5.1%        11.5%    42.6%     40.4%     0.4%
g. did not tolerate sexual assaults     65         150      132       121        2
                                      13.8%       31.9%    28.1%     25.7%     0.4%
h. had a good process for reporting     49         108      189       122        2
sexual assaults                       10.4%       23.0%    40.2%     26.0%     0.4%




                                         [ 21 ]
         Table 11c - Cadets Sexually Assaulted – Views on Academy Leaders
 Prior to January 2003, the            Strongly                         Don’t      No
 Academy’s leaders…                     Agree        Agree   Disagree   Know    Response
 a. handled sexual assault cases          2            14       71        22       0
 appropriately                          1.8%         12.8%    65.1%     20.2%    0.0%
 b. in general, punished offenders        4            13       55        37       0
 appropriately                          3.7%         11.9%    50.5%     33.9%    0.0%
 c. implemented sufficient
 programs to prevent sexual              13            39       47        9        1
 assaults                              11.9%         35.8%    43.1%     8.3%     0.9%
 d. increased awareness and
                                         17            32       58        2        0
 encouraged victims and others to
                                       15.6%         29.4%    53.2%     1.8%     0.0%
 report sexual assaults
 e. effectively assisted sexual           4            18       60        27       0
 assault victims                        3.7%         16.5%    55.0%     24.8%    0.0%
 f. treated sexual assault victims        3            16       63        26       1
 fairly                                 2.8%         14.7%    57.8%     23.9%    0.9%
 g. did not tolerate sexual assaults     10            33       44        22       0
                                        9.2%         30.3%    40.4%     20.2%    0.0%
 h. had a good process for               10            26       54        19       0
 reporting sexual assaults              9.2%         23.9%    49.5%     17.4%    0.0%

                Table 11d - Cadet: Victims of Rape/Attempted Rape –
                             View of Academy Leaders
Prior to January 2003, the             Strongly                       I Don't  No
Academy’s leaders…                      Agree        Agree   Disagree Know Response
a. handled sexual assault cases            0            5       29        9     0
appropriately                            0.0%        11.6%    67.4%    20.9%  0.0%
b. in general, punished offenders          0            6       21       16     0
appropriately                            0.0%        14.0%    48.8%    37.2%  0.0%
c. implemented sufficient programs         3           20       15        4     1
to prevent sexual assaults               7.0%        46.5%    34.9%    9.3%   2.3%
d. increased awareness and
                                           3           14       24        2        0
encouraged victims and others to
                                         7.0%        32.6%    55.8%     4.7%     0.0%
report sexual assaults
e. effectively assisted sexual assault     0            8       24        11       0
victims                                  0.0%        18.6%    55.8%     25.6%    0.0%
f. treated sexual assault victims          0            6       26        11       0
fairly                                   0.0%        14.0%    60.5%     25.6%    0.0%
                                           2           16       17         8       0
g. did not tolerate sexual assaults      4.7%        37.2%    39.5%     18.6%    0.0%
h. had a good process for reporting        2           14       17        10       0
sexual assaults                          4.7%        32.6%    39.5%     23.3%    0.0%




                                            [ 22 ]
            While at least 60 percent of respondents37 indicated that previous Academy
            leaders implemented sufficient programs to prevent sexual assaults, increase
            awareness, and encourage reporting of sexual assaults, approximately 75% of the
            respondents also indicated that previous leaders did not handle sexual assault
            cases or punish offenders appropriately, nor did they assist sexual assault victims
            or treat them fairly. Those respondents who indicated that they had been
            assaulted were even more negative towards previous command actions and
            significantly fewer of these assaulted cadets indicated they did not know. In
            addition, for the respondents who indicated assault including rape or attempted
            rape, the views on past command action are even lower.

            The respondents were asked whether prior to January 2003, certain actions had
            been taken at the Academy to prevent sexual assaults and uninvited and unwanted
            sexual attention.38 Seventy-six percent (439 of 579) of the respondents indicated
            that the Academy has made it clear that this behavior will not be tolerated.
            Eighty-six percent (499 of 577) indicated that the Academy has provided
            awareness and prevention training. Twenty percent (117 of 576) indicated that
            penalties are enforced against unit commanders or superiors who tolerate this
            behavior. Nearly half of the respondents did not know whether complaints were
            investigated, whether penalties are enforced against offenders, and whether
            penalties are enforced against unit commanders or superiors that tolerate sexual
            assaults and unwanted, uninvited sexual attention. Further results are provided in
            Table 12a.39

    Table 12a - All Respondents – Views on Actions Taken by Previous Command
                                                              Don’t       No
    Preventive Actions                       Yes       No      know    Response
 a. Making it clear that this behavior will  439      104        36        0
 not be tolerated.                          75.8%    18.0%     6.2%      0.0%
 b. Investigating complaints.                201      116       261        1
                                            34.7%    20.0%    45.1%      0.2%
 c. Enforcing penalties against offenders.   150      169       258        2
                                            25.9%     29.2    44.6%      0.3%
 d. Enforcing penalties against unit
                                             117      147       313        2
 commanders or superiors who tolerate
                                            20.2%    25.4%    54.1%      0.3%
 this behavior.
 e. Providing awareness and prevention       499       57        20        3
 training.                                  86.2%    9.8%      3.5%      0.5%

            Tables 12b and c reflect the same information broken out by respondents who
            indicated they were sexually assaulted and those who did not.




37
      These figures are based on the total respondents who rendered an opinion; these figures do not include
     the cadets who indicated they did not know.
38
      Survey Question 4, “Prior to January 2003, at your academy, have these actions been taken to prevent
     sexual assaults and uninvited, unwanted sexual attention?”
39
      Corresponds with Question 4 of survey questionnaire at Attachment C.



                                                      [ 23 ]
                    Table 12b - Cadets Not Sexually Assaulted – Views on Actions
                                   Taken by Previous Command

                                                                            Don’t      No
 Preventive Actions                                     Yes          No     know    Response
 a. Making it clear that this behavior will             369           71      30        0
 not be tolerated.                                     78.5%        15.1%   6.4%      0.0%
 b. Investigating complaints.                           164           81     224        1
                                                       34.9%        17.2%   47.7%     0.2%
 c. Enforcing penalties against offenders.              126          122     220        2
                                                       26.8%        26.0%   46.8%     0.4%
 d. Enforcing penalties against unit
                                                        100          106     262       2
 commanders or superiors who tolerate
                                                       21.3%        22.6%   55.7%    0.4%
 this behavior.
 e. Providing awareness and prevention                  414           37     17        2
 training.                                             88.1%         7.9%   3.6%     0.4%

    Table 12c - Cadets Sexually Assaulted – Views on Actions Taken by Previous
                                        Command
                                                               Don’t      No
 Preventive Actions                          Yes      No       know    Response
 a. Making it clear that this behavior will   70       33         6        0
 not be tolerated.                          64.2%    30.3%     5.5%      0.0%
 b. Investigating complaints.                 37       35        37        0
                                            33.9%    32.1%     33.9%     0.0%
 c. Enforcing penalties against offenders.    24       47        38        0
                                            22.0%    43.1%     34.9%     0.0%
 d. Enforcing penalties against unit
                                              17       41        51        0
 commanders or superiors who tolerate
                                            15.6%    37.6%     46.8%     0.0%
 this behavior.
 e. Providing awareness and prevention        85       20         3        1
 training.                                  78.0%    18.4%     2.8%      0.9%

           When the cadets were asked what action was taken against the offender regarding
           their sexual assault incident(s), no respondents indicated that the offender was
           court-martialed or received non-judicial punishment. Three offenders were
           dismissed from the Academy, two left the Academy voluntarily, and one received
           cadet discipline. Respondents indicated that in 15 incidents, no action was taken
           against their offender. Eleven respondents indicated that the action taken against
           the offender(s) that assaulted them was too lenient, and six indicated the action
           taken was appropriate to the circumstances.
           The respondents were also asked how much they agreed or disagreed     that, prior to
           January 2003, the Academy agencies/entities listed in Table 13a40, effectively
           handled matters related to sexual assaults.



40
     Corresponds with Question 9 of survey questionnaire at Attachment C.



                                                   [ 24 ]
              Table 13a - All Respondents – Views on Academy Agencies
 Agencies/entities effectively
 handled matters related to        Strongly                    Don’t               No
 sexual assaults                    Agree Agree Disagree Know                   Response
 a. Cadet/midshipman
                                       97      139       20     321                 2
 Victim/Witness Assistance
                                    16.8% 24.0%        3.5%    55.4%              0.3%
 Office
 b. Cadet/midshipman Counseling       115      192       37     233                 2
 Center                             19.9% 33.2%        6.4%    40.2%              0.3%
                                       45      128      111     293                 2
 c. Academy Medical facilities       7.8%     22.1% 19.2%      50.6%              0.3%
                                       31       97       85     362                 4
 d. Academy Legal personnel          5.4%     16.8% 14.7%      62.5%              0.6%
                                       32       71      140     332                 4
 e. AFOSI                            5.5%     12.3% 24.2%      57.3%              0.6%
                                       28       73       76     397                 5
 f. Security Forces                  4.8%     12.6% 13.1%      68.6%              0.9%

       According to the data, approximately 92 percent of the cadets who rendered an
       opinion about the Victim/Witness Assistance Office and the Cadet Counseling
       Center indicated they handle sexual assault matters effectively. While only 5
       respondents previously indicated they reported their sexual assault to AFOSI, 140
       of the 243 respondents (58%) who rendered an opinion about AFOSI, do not
       believe they effectively handle sexual assault matters. Table 13b reflects the
       views of respondents who indicated they were sexually assaulted.

                        Table 13b - Cadets Sexual Assaulted–
                      Views on Academy Agencies (109 Cadets)
 Agencies/entities effectively handledStrongly                             I Don't
matters related to sexual assaults     Agree          Agree Disagree        Know
a. Cadet/midshipman Victim/Witness       22             35      7             45
Assistance Office                      20.2%          32.1%  6.4%           41.3%
                                         24             37     12             36
b. Cadet/midshipman Counseling Center 22.0%           33.9%  11.0%          33.0%
                                          7             23     33             46
c. Academy Medical facilities           6.4%          21.1%  30.3%          42.2%
                                          5             21     24             59
d. Academy Legal personnel              4.6%          19.3%  22.0%          54.1%
                                          5             13     37             54
e. OSI, CID or NCIS                     4.6%          11.9%  33.9%          49.5%
f. Security Forces, Military Police,      5             15     27             62
Masters at Arms                         4.6%          13.8%  24.8%          56.9%

       The participants were asked whether they believed training in sexual assault-
       related topics was adequate, needed improvement, or whether training was not
       offered. Although the responses indicated that each topic is trained at the
       Academy, it is also apparent that not all cadets received training in all of the


                                           [ 25 ]
           topics. Most notable was a lack of training in the roles of AFOSI, security forces,
           and legal offices regarding sexual assaults. The areas in which most respondents
           believed training was adequate was “understanding sexual assault (definition),”
           followed by “Hotline’s role in sexual assaults,” and “self-defense training.” Only
           316 of 578 (55%) of respondents indicated that training on sexual assault
           reporting was adequate and 107 of 571 (19%) thought training on amnesty
           programs was adequate. Tables 14a and b41 reflect the training responses for all
           respondents and then for those 109 respondents indicating they were sexually
           assaulted. Some contrast is noted in items a, b, k, and m, where sexual assault
           victims’ answers were lower in adequacy, and higher in needs improvement
           categories, while their responses in items c, d, e, and f closely resembled those of
           all respondents.

               Table 14a- All Respondents – Views on Sexual Assault Training
                                              Needs    N/A Not    No
             Training             Adequate Improvement Trained Response Totals
a. Understanding sexual assault     502         65        11       1
(definition)                       86.7%      11.2%     1.9%     0.2%    579
                                    316        233        29       1
b. Reporting sexual assault        54.6%      40.2%     5.0%     0.2%    579
c. Investigating sexual assaults    134        244       198       3
(OSI, CID, NCIS role)              23.1%      42.1%     34.2%    0.6%    576
d. Police role in sexual assaults
                                    115        228       228       8
(Security Forces, Military                                               579
                                   19.9%      39.4%     39.4%    1.4%
Police, Masters at Arms)
e. Command’s role in handling       161        272       140       6
sexual assaults                    27.8%      47.0%     24.2%    1.0%    579
f. Medical personnel’s role in      286        188        98       7
sexual assaults                    49.4%      32.5%     16.9%    1.2%    579
g. Counseling center’s role in      386        144        46       3
sexual assaults                    66.7%      24.9%     7.9%     0.5%    579
h. Hotline’s role in sexual         460         85        30       4
assaults                           79.5%      14.7%     5.1%     0.7%    579
i. SJA/Legal office's role in       146        220       208       5
sexual assaults                    25.2%      38.0%     35.9%    0.9%    579
j. Victim/Witness Assistance        207        197       169       6
Program                            35.8%      34.0%     29.2%    1.0%    579
k. Dormitory security               354        128        91       6
procedures                         61.1%      22.1%     15.7%    1.0%    579
                                    451        107        16       5
l. Self-defense training           77.9%      18.4%     2.8%     0.9%    579
                                    107        307       157       8
m. Amnesty programs                18.5%      53.0%     27.1%    1.4%    579



41
     Corresponds with Question 27 of survey questionnaire at Attachment C.



                                                   [ 26 ]
  Table 14b - Cadets Indicating Sexually Assault – Views on Sexual Assault Training
                                              Needs    N/A Not     No
             Training             Adequate Improvement Trained Response Totals
a. Understanding sexual assault      83         22         4        0
(definition)                       76.1%      20.2%      3.7%    0.0%        109
                                     44         58         7        0
b. Reporting sexual assault        40.4%      53.2%      6.4%    0.0%        109
c. Investigating sexual assaults     26         47        36        0
(OSI, CID, NCIS role)              23.9%      43.1%     33.0%    0.0%        109
d. Police role in sexual assaults
                                     18         45        43        3
(Security Forces, Military                                                   109
                                   16.5%      41.3%     39.4%    2.8%
Police, Masters at Arms)
e. Command’s role in handling        28         54        25        2
sexual assaults                    25.7%      49.5%     22.9%    1.8%        109
f. Medical personnel’s role in       52         35        19        3
sexual assaults                    47.7%      32.1%     17.4%    2.8%        109
g. Counseling center’s role in       68         34         6        1
sexual assaults                    62.4%      31.2%      5.5%    0.9%        109
h. Hotline’s role in sexual          81         20         6        2
assaults                           74.3%      18.4%      5.5%    1.8%        109
i. SJA/Legal office's role in        25         49        33        2
sexual assaults                    22.9%      45.0%     30.3%    1.8%        109
j. Victim/Witness Assistance         36         48        23        2
Program                            33.0%      44.0%     21.1%    1.8%        109
k. Dormitory security                49         42        16        2
procedures                         45.0%      38.5%     14.7%    1.8%        109
                                     84         20         3        2
l. Self-defense training           77.1%      18.3%      2.8%    1.8%        109
                                     11         74        23        1
m. Amnesty programs                10.1%      67.9%     21.1%    0.9%        109

           The respondents were asked to provide their level of agreement that certain
           groups of Academy personnel made honest and reasonable efforts to prevent or
           stop uninvited and unwanted sexual attention at the Academy. The groups
           included the current and previous senior Academy leaders, commissioned
           officers, faculty members, and cadets. Most respondents (556 of 576 [96%])
           agreed that the current senior leadership made honest and reasonable efforts to
           prevent or stop uninvited and unwanted sexual attention. In contrast, 267 of 577
           (46%) respondents agreed that the previous senior leadership made honest and
           reasonable efforts in this area. The Table 15a42 reflects the results of this
           question.




42
     Corresponds with Question 3 of survey questionnaire at Attachment C.



                                                    [ 27 ]
         Table 15a - All Respondents – Views on Leadership and Fellow Cadets

                                Strongly                         Strongly       No
     Persons or Groups           Agree        Agree   Disagree   Disagree    Response
a. Current Senior leadership       330         226       12          10          1
of my Academy                    57.0%        39.0%    2.1%        1.7%        0.2%
b. Previous Senior leadership       57         210      209         101          2
of my Academy                     9.8%        36.3%    36.1%      17.4%        0.3%
c. Commissioned officer
                                  132          329       90         26           2
chain of command below the
                                 22.8%        56.8%    15.5%       4.5%        0.3%
Commandant
d. Academy faculty members        187          329       51         11           1
                                 32.3%        56.8%    8.8%        1.9%        0.2%
e. My cadet leadership chain      124          321       94         39           1
                                 21.4%        55.4%    16.2%       6.7%        0.2%
f. My fellow cadets               119          293      127         39           1
                                 20.6%        50.6%    21.9%       6.7%        0.2%

      When the data are reviewed from the perspective of those cadets who indicated
      they were sexually assaulted, and those who did not, differences of opinion are
      evident regarding commissioned officers, the cadet leadership chain, and fellow
      cadets. Approximately 20 percent more of the respondents who were not sexually
      assaulted agreed that these groups made honest and reasonable efforts to prevent
      or stop uninvited and unwanted sexual attention at the Academy. The Tables 15b,
      c, d, and e below reflect this breakout.

Table 15b - Cadets Not Sexual Assaulted – Views of Leadership and Fellow Cadets
                           Strongly                         Strongly      No
    Persons or Groups        Agree     Agree Disagree       Disagree Response
a. Current Senior             273        180          9         8          0
leadership of my Academy     58.1%     38.3%       1.9%       1.7%       0.0%
b. Previous Senior             48        175        175        71          1
leadership of my Academy     10.2%     37.2%      37.2%      15.1%       0.2%
c. Commissioned officer
                              113        279         60        17          1
chain of command below
                             24.0%     59.4%      12.8%       3.6%       0.2%
the Commandant
d. Academy faculty            155        269         37         9          0
members                      33.0%     57.2%       7.9%       1.9%       0.0%
e. My cadet leadership        106        273         70        21          0
chain                        22.6%     58.1%      14.9%       4.5%       0.0%
f. My fellow cadets           107        250         91        22          0
                             22.8%     53.2%      19.4%       4.7%       0.0%




                                         [ 28 ]
Table 15c - Cadets Indicating Sexually Assaulted – Views of Leadership and Fellow
                                      Cadets
                             Strongly                         Strongly      No
    Persons or Groups          Agree     Agree Disagree       Disagree Response
a. Current Senior               57        46          3           2          1
leadership of my Academy      52.3%     42.2%       2.8%        1.8%       0.9%
b. Previous Senior               9        35         34          30          1
leadership of my Academy       8.3%     32.1%      31.2%       27.5%       0.9%
c. Commissioned officer
                                19        50         30           9          1
chain of command below
                              17.4%     45.9%      27.5%        8.3%       0.9%
the Commandant
d. Academy faculty              32        60         14           2          1
members                       29.4%     55.1%      12.8%        1.8%       0.9%
e. My cadet leadership          18        48         24          18          1
chain                         16.5%     44.0%      22.0%       16.5%       0.9%
f. My fellow cadets             12        43         36          17          1
                              11.0%     39.5%      33.0%       15.6%       0.9%

Table 15d - Cadets Sexually Assaulted But Not Rape/Attempt – Views of Leadership
                                    and Fellow Cadets
                                      Strongly                    Strongly
   Person or Group of Persons          Agree      Agree Disagree Disagree
a. Current Senior leadership of my       35         28      3         0
Academy                                53.0%      42.4%  4.6%       0.0%
b. Previous Senior leadership of          7         17     23        19
my Academy                             10.6%      25.8%  34.9%     28.8%
c. Commissioned officer chain of         12         30     20         4
command below the Commandant           18.2%      45.5%  30.3%      6.1%
                                         19         34     11         2
d. Academy faculty members             30.2%      51.5%  16.7%      3.0%
e. My cadet/midshipmen                   14         22     16        14
leadership chain                       21.2%      33.3%  24.2%     21.2%
                                          7         25     23        11
f. My fellow cadets/midshipmen         10.6%      37.9%  34.9%     16.7%
(Note: Total cadets in this group amount to 66)

  Table 15e – Cadets’ Sexual Assaults Include Rape/Attempt – Views of Leadership
                                   and Fellow Cadets
                                    Strongly                   Strongly No
Person or Group of Persons          Agree      Agree  Disagree Disagree Response
a. Current Senior leadership of my       22       18      0        2        1
Academy                                51.2%    41.9%   0.0%     4.7%     2.3%
b. Previous Senior leadership of my       2       18     11       11        1
Academy                                4.7%     41.9% 25.6% 25.6%         2.3%




                                      [ 29 ]
c. Commissioned officer chain of                   7           20         10      5        1
command below the Commandant                    16.3%        46.5%      23.3%   11.6%    2.3%
                                                  13           26          3      0        1
d. Academy faculty members                      30.2%        60.5%      7.0%    0.0%     2.3%
e. My cadet/midshipmen leadership                  4           26          8      4        1
chain                                           9.3%         60.5%      18.6%   9.3%     2.3%
                                                   5           18         13      6        1
f. My fellow cadets/midshipmen                  11.6%        41.9%      30.2%   14.0%    2.3%

           The participants were asked a series of questions related to reporting sexual
           assaults listed in Table 16a43, and indicate how much they agreed or disagreed
           with each statement.

      Table 16a - All Respondents – Views on Cadet Loyalty and Sexual Assault
                                     Reporting
                                Strongly                      Strongly      No
 Most cadets are willing to…     Agree     Agree Disagree Disagree response
 a. report a sexual assault
                                   45       150       282        101         1
 incident regardless of loyalty
                                  7.8%     25.9%     48.7%      17.4%      0.2%
 to the offender
 b. report a sexual assault
                                   20       121       347         90         1
 incident even if the victim
                                  3.5%     20.9%     59.9%      15.5%      0.2%
 told them in confidence
 c. provide information that
 might implicate themselves or     23        94       301        159         2
 other in lesser infractions,     4.0%     16.2%     52.0%      27.5%      0.3%
 such as underage drinking

           The data indicate that the respondents perceive that most cadets are not willing to
           report sexual assaults, and are not willing to provide information about sexual
           assaults that might implicate themselves in lesser infractions. These views are
           even stronger for cadets who indicated they had been sexually assaulted,
           particularly those whose assault included rape or attempted rape. Tables 16b and
           c show the responses broken out first by those cadets who indicated they had not
           been sexually assaulted and by cadets whose sexual assault included rape or
           attempted rape.

     Table 16b - Cadets Indicating No Sexual Assault – Views on Cadet Loyalty and
                               Sexual Assault Reporting
                                      Strongly                                 Strongly    No
    Most cadets are willing to…        Agree                 Agree    Disagree Disagree response
a. report a sexual assault incident      40                   135       226       68        1
regardless of loyalty to the offender   8.5%                 28.7%     48.1%    14.5%     0.2%



43
     Corresponds with Question 10 of survey questionnaire at Attachment C.



                                                    [ 30 ]
b. report a sexual assault incident
                                                 15           105        286      63        1
even if the victim told them in
                                                3.2%         22.3%      60.9%   13.4%     0.2%
confidence
c. provide information that might
implicate themselves or others in                19            85        251     113        2
lesser infractions, such as underage            4.0%         18.1%      53.4%   24.0%     0.4%
drinking

     Table 16c – Rape/Attempted Rape Victims’ Views on Cadet Loyalty and Sexual
                           Assault Reporting (43 Cadets)
                                      Strongly                                 Strongly
     Most cadets are willing to…       Agree                 Agree    Disagree Disagree
a. report a sexual assault incident       1                    4         20       18
regardless of loyalty to the offender   2.3%                 9.3%      46.5%    41.9%
b. report a sexual assault incident
                                          1                    3          25      14
even if the victim told them in
                                        2.3%                 7.0%       58.1%   32.6%
confidence
c. provide information that might
implicate themselves or others in         0                    0          21      22
lesser infractions, such as underage    0.0%                 0.0%       46.8%   51.8%
drinking

           Respondents were asked in Question 5 to indicate how safe they felt in various
           locations and situations, and the vast majority (over 90%) indicated they “very
           safe” or “safe” in every situation except being “alone on academy grounds during
           hours of darkness” (Item 5f). In this instance only 69 percent selected “very safe”
           or “safe”—20 percent felt only “somewhat safe”, and another 10percent felt either
           “unsafe” or “very unsafe.” Table 17a44 details the responses to this question.

                     Table 17a - All Respondents – Views of Safety
                                    Very        Somewhat Somewhat Very        No
How safe do you feel…                Safe Safe     Safe      Unsafe Unsafe Response
a. In your dormitory room with       520    52       1          5      1       0
your roommate                      89.8% 9.0%      0.2%       0.9%   0.2%    0.0%
                                     427   106      32          8      5       1
b. Alone in your dormitory room 73.7% 18.3% 5.5%              1.4%   0.9%    0.2%
c. In common areas within the        448   105      22          1      1       2
dormitory                          77.4% 18.1% 3.8%           0.2%   0.2%    0.3%
d. In a dormitory room with a
member of your cadet or              436   124      14          4      1       0
midshipmen chain of command        75.3% 21.4% 2.4%           0.7%   0.2%    0.0%
who is of the opposite sex
e. Alone on academy grounds          469    99       8          1      1       1
during daylight hours              81.0% 17.1% 1.4%           0.2%   0.2%    0.2%

44
     Corresponds with Question 5 of survey questionnaire at Attachment C.



                                                    [ 31 ]
f. Alone on academy grounds                 216   183            116         51     12      1
during hours of darkness                   37.3% 31.6%          20.0%       8.8%   2.1%   0.2%
g. Alone in the office with a
                                            436   116             19          5      1      2
commissioned officer, or a
                                           75.3% 20.0%           3.3%       0.9%   0.2%   0.3%
civilian instructor

           Table 17b details the responses of those cadets who indicated sexual assault in
           Question 11. The numbers are not quite as high, but in every situation—except
           Item 5f—86 percent or more indicated they felt “very safe” or “safe.” For Item
           5f, only 54 percent felt “very safe” or “safe”—30 percent felt only “somewhat
           safe,” and another 15 percent felt “unsafe” or “very unsafe.”




                Table 17b - Cadets Indicating Sexual Assault – Views of Safety

                                        Very                 Somewhat Somewhat Very      No
    How safe do you feel…               Safe     Safe          Safe    Unsafe  Unsafe Response
a. In your dormitory room with           84       21             1        3       0       0
your roommate                           77%      19%            1%       3%     0.0%    0.0%
b. Alone in your dormitory               64       30             9        4       2       0
room                                    59%      27%            8%       4%      2%     0.0%
c. In common areas within the            64       38             6        1       0       0
dormitory                               59%      35%             5       1%     0.0%    0.0%
d. In a dormitory room with a
member of your cadet or                   61      40            6            2       0       0
midshipmen chain of command              56%     37%           5%           2%     0.0%    0.0%
who is of the opposite sex
e. Alone on academy grounds               66      39             3            0      0       1
during daylight hours                    61%     36%           3%           0.0%   0.0%    0.9%
f. Alone on academy grounds               32      27            33           13      3       1
during hours of darkness                 29%     25%           30%          12%     3%     0.9%
g. Alone in the office with a
                                          62      36            9            1       0       1
commissioned officer, or a
                                         57%     33%           8%           1%     0.0%    0.9%
civilian instructor

           Respondents were also asked to identify their biggest personal safety fear. A total
           of 365 cadets (63.0% of all respondents) indicated no fears about personal safety,
           while 14.2 percent (82 of 579) indicated the fear of being hazed or unjustifiably
           harassed. Only 8.8 percent indicated the fear of being sexually assaulted,
           although these numbers were nearly double for those cadets who indicated
           experiencing sexual assault or rape. Table 1845 shows the response tabulations for
           cadets who indicated experiencing no assault, assault, or rape/attempted rape.


45
     Corresponds with Question 6 of survey questionnaire at Attachment C.



                                                    [ 32 ]
Table 18 - All Respondents by Victim/Non-Victim Groups – Views on Fears

                                                  Sexually      Not        Total/
  BIGGEST personal safety fear        Rape
                                                  Assaulted   Assaulted     %
I have no fears about my               13               34      331        365
personal safety                      30.2%            31.2%    70.4%      63.0%
That I will be hazed or                10               27       55         82
unjustifiably harassed               23.3%            24.8%    11.7%      14.2%
That I will be physically               5                8       19         27
assaulted in a non-sexual manner     11.6%            7.3%     4.0%       4.7%
That I will be sexually assaulted       7               17       34         51
                                     16.3%            15.6%    7.2%       8.8%
Other                                   8               22       31         53
                                     18.6%            20.2%    6.6%       9.2%
Did not respond                         0                1        0          1
                                      0%              0.9%     0.0%       0.2%
Total                                  43              109      470        579
                                     100%             100%     100%       100%

C.      Comments on Reasons for Not Reporting Sexual Assaults
        These comments relate to survey Question 26, which asked, “From your
        perspective, other than embarrassment or shame, what do you think is the number
        ONE reason why some victims, at your academy, do not report sexual assaults?”
        (This comment field is associated with the “Other” response.)

        Of the 109 cadets who indicated that they were victims of sexual assault, 19
        provided comments regarding reasons for not reporting sexual assaults. Eight of
        the 19 indicated that their assault included rape or attempted rape.

Leadership and Handling of Sexual Assaults
        Of the 19 cadets who indicated they were victims of sexual assault and who
        provided comments on reporting, 5 of them (including 3 whose assault included
        rape or attempted rape), made comments regarding the Academy leadership prior
        to January 1, 2003 and their handling of sexual assaults. Three cadets stated that
        they believed that nothing would be done about the sexual assault. Another cadet
        commented that her chain of command downplayed the incidents of inappropriate
        touching and indecent exposure by a male cadet she reported. She indicated the
        worst part was not what the assailant did to her, but that her chain of command
        did nothing to help her.

        Another cadet thought the reason cadets do not report sexual assault now is due to
        “fear of being ostracized and picked out by the senior leadership as a test subject
        for more studies and surveys.”




                                             [ 33 ]
Repercussions
     Of the 19 cadets who indicated they were victims of sexual assault and who
     provided comments on reporting, 8 of them (including 2 whose assault included
     rape or attempted rape), indicated that some form of repercussion was the reason
     victims did not report sexual assaults. Five cadets indicated that victims did not
     report for fear of getting themselves or others in trouble for violations of rules;
     four of these cadets made reference to victims putting themselves in bad
     situations, such as underage drinking, fraternization, or making bad decisions.
     Three cadets feared being ostracized or looked down on by peers and
     commissioned officers, such as one’s AOC. One of the three cadets also feared
     being blamed by her peers for having been sexually assaulted. Another cadet
     feared her assailant would come back to get her.

     Other comments respondents gave for not reporting sexual assault were:

        •   “If you report now you have to prosecute, and most people don’t want to
            deal with teh [sic] lengthy process but still want help.”

        •   “There is no reason that someone should not report. They would have
            complete backing from everyone here at the Academy. I find it hard to
            believe that someone got reprisal after reporting.”

        •   “…The reporting procedures are not clear and by the time they are figured
            out, the person has convinced themselves its not worth reporting when it
            truly is.”

D.   Comments Regarding Reprisal
     In Question 23 of the survey, sexual assault victims were asked, “After you
     reported that you were sexually assaulted, did you experience any reprisal as a
     result?” If respondents indicated “yes,” then the subsequent question asked them
     what form of reprisal they suffered. Response Item 24.j. was “Other” and allowed
     cadets to provide specifics in a memo field. Although four cadets provided
     comments in Item 24.j, only one cadet who indicated that her assault included
     rape or attempted rape commented on the reprisal she had experienced. She
     characterized her coming forward as the worst mistake she had ever made,
     indicating that her command did nothing to protect her confidentiality and nothing
     to stop the offending cadet from spreading lies about her. As a result, she has
     been ostracized and cannot advance within the squadron. Another cadet who
     indicated that her assault included rape or attempted rape responded that although
     she did not receive punishments yet, she felt that if the question were asked, she
     would get into trouble for something that she did a long time ago. She stated that
     it is very unlikely that they will find her rapist, and in the end, he will walk away
     with nothing and she will be punished.

E.   Comments Regarding Cadet Safety
     Of the 109 cadets who indicated that they were victims of sexual assault, 69
     provided comments regarding safety in response to survey questions 6 and 7.



                                         [ 34 ]
            Twenty-five of the 69 indicated the sexual assault they experienced included rape
            or attempted rape.

Unfavorable Comments
            Of the 69 cadets who indicated they were victims of sexual assault and who
            provided comments on safety, 42 of them (including 16 whose assault included
            rape or attempted rape), made unfavorable comments regarding safety at the
            Academy.

            For 16 of the 42 female cadets (including 8 whose assault included rape or
            attempted rape), their biggest personal safety fear was being hazed or
            unjustifiably harassed. See the following examples of their comments:

                •    “Because of all this attention, I feel that it has brought a lot of attention to
                     females and they are being blamed for this. Some males still do not think
                     that females should be here.”

                •     “I fear that I will not be treated professionally. There are officers and
                     cadets here that are out for themselves and will hurt anyone in their
                     process of self domination.”

                •    “Comments and actions that have been made in the past, ones that I have
                     reported, that have gone unchecked, that do not fall under sexual assult
                     [sic], but make me very uncomfortable.”

            For 9 of these 42 female cadets (including 2 whose assault included rape or
            attempted rape), their biggest personal safety fear was being sexually assaulted.
            Examples of their comments follow:

                •    “My entire time at this school I do not feel that the guys here have taken
                     assault seriously.”

                •    “Someone assaulted me and my chain of command told me that I was the
                     one that had the problem, and if I was uncomfortable with the situation, I
                     should leave because I would not make a good officer.”

                •    “It happened to me and I am afraid it will happen again and happen on
                     base.”

            For 6 of these 42 female cadets (including 4 whose assault included rape or
            attempted rape), their biggest personal safety fear was being physically assaulted
            in a non-sexual manner. See the following example of their comments:

                •    “The academy is so immense, I am afraid that a civilian will get on base
                     and try to assault or attack female cadets while they are running or
                     walking outside in the dark or in the surrounding areas.”

            The remaining 10 of the 42 female cadets46 (including 2 whose assault included
            rape or attempted rape) selected “Other” for their biggest personal safety fear.
46
      One cadet did not respond to the question regarding your biggest personal safety fear, but did provide
     comments.



                                                       [ 35 ]
     Four had concerns about being on the Academy grounds at night, particularly in
     areas with poor lighting such as the parking lot. Another cadet commented on
     cadet loyalty:

        •   “The Academy teaches everyone to be loyal to one another and anyone
            who does not try to keep someone else out of trouble, regardless of the
            other persons wrongdoing, is bound to be ostrasized. [sic] I have seen it
            happen before and I have experienced it personally.”

Favorable Comments
     Of the 69 cadets who indicated they were victims of sexual assault and who
     provided comments on safety, 17 of them (including 5 whose assault included
     rape or attempted rape), made favorable comments regarding safety at the
     Academy. Sixteen of the 17 had no personal safety fears, and one selected
     “Other.” Examples of their comments follow:
        •   “I have never felt threatened by the male cadets at the Academy.”

        •    “I trust all the people, males and females alike, that I work with and
            always feel safe on academy grounds.”

Other Comments on Safety
     Of the 69 cadets who indicated they were victims of sexual assault and who
     provided comments on safety, 10 of them (including 4 whose assault included
     rape or attempted rape), made other comments regarding safety at the Academy.
     One cadet, who indicated that her assault included rape or attempted rape,
     selected sexual assault as her biggest fear and said her reason was “being a female
     in a prodominately [sic] male environment. Two cadets who indicated that they
     have no fears, gave the following reasons:

        •   “The worst has already happened and I cannot fear something or someone
            I do not know anymore.”

        •   “I do not put myself in situations that lead to my safety being
            jeopardized.”

F.   General Comments
     Of the 109 cadets who indicated that they were victims of sexual assault, 58
     provided general comments at the end of the survey.

Environment
     Of the 58 cadets who indicated they were victims of sexual assault and who
     provided general comments at the end of the survey, 32 of them (including 12
     whose assault included rape or attempted rape), made comments regarding the
     general environment at the Academy. Of the 32 comments, 9 of them were
     favorable. See the following examples:



                                        [ 36 ]
             "I feel completelysafein my dorm room.
             "This is a very safeenvironment;I haveneverfelt threatened,"
        .     "I feel safearoundmy squadronbrothers.. "

     Therewerealso21 unfavorablecommentsmade,7 of which addressedsexual
     harassment.Seethe following examples:
             "It is the culture herethat is the problem;we aredegradedfrom day
                      "
             one...



              "There is not a day that goes by that someonedoes not make a sexual
             comment to me, even if they are joking."

             "The problem is that there is an unseen level of power that upperclassmen
             have to the underclassmen...also to the fact that people turn a blind eye to
             assault..."
             "The main problemsI encounteredwereasa four degreeandthey were
             from upperclassmenwith whom I was in unprofessionalrelationships
             with."

Leadership
     Of the 58 cadets who indicatedthey were victims of sexual assault, and who
     provided general comments at the end of the survey, 14 of them (including 6
     whose assault included rape or attempted rape), made comments regarding the
     Academy leadership, both past and present. Regarding the past leadership, two
     favorable comments were made:
             "I do not believe that the Academy staff prior to January 2003 was
             condoning ANY sort of sexual assault."
             "General Dallagher was the greatestally we ever had     ..

     Six unfavorablecommentswerealsomade,including:
             "The way prior senior leadership handled these caseswas in need of much
             improvement."
             "My officer chain of command was very insensitive... The former training
             group commander even threatenedto give me an honor violation for the
             letterthat I hadwritten my congressman
                                                  andthe IG.. ."
             "Past leadership was a HUGE problem."
     Regarding the current leadership, two unfavorable comments were made:

        .    "Gen Weida and           and SECAF and others have made the
             monumental mistake of assuming that this is a mans [sic] problem...this is
             a womans [sic] problem that can be remedied when those who have not




                                         (37
            gone through it are willing to stand up and believe those who have and
            protect the environment in which we live.”

        •   “The officer chain of command, especially from the Group AOCs down,
            are not committed to this problem. My own group AOC has made
            insensitive comments about sexual assault, so how can I expect anyone
            else to care.”

     Six favorable comments were also made, including:

        •   “I am very confident in the new leadership at the academy and fell they
            will work hard to change things.”

        •   “I think the current leadership has already made a huge difference, a
            difference for the better.”

        •   “I trust the leadership now and I believe they will do the right thing when
            the a [sic] female reports a sexual assult [sic].”

Reporting
     Of the 58 cadets who indicated they were victims of sexual assault, and who
     provided general comments at the end of the survey, 15 of them (including 9
     whose assault included rape or attempted rape), made comments regarding the
     reporting of sexual assaults. See the following examples:

        •   “I was scared to report because I was afraid that I would be forced out of
            the academy. I did however report to my AOC and counseling center so I
            could receive appropriate treatment.”

        •   “I believe that the Academy has gone completely to the other side of the
            spectrum. They went from not reporting things to report and if unwilling,
            threatening them to come forward. The victim no longer has any rights
            what so ever and that makes them feel even more victimized.”

        •   “…the girls who report it are often harrassed [sic] even more after they
            report it.”

        •   “The women who came forward are made fun of by the cadet wing for
            being promiscuous or fraternizing and much of the blame is placed on
            them. Seeing this attitude, I think that another female cadet would be
            scared to come forward in this environment, seeing how these other
            women were ostracized.”

        •   “I was shocked to hear that some people thought that they could not report
            their sexual assault or that they were punished after reporting. I know for
            a fact that none of the guys here would stand for sexual assaults to happen
            to anyone here.”

Investigation and Prosecution
     Of the 58 cadets who indicated they were victims of sexual assault, and who
     provided general comments at the end of the survey, eight of them (including 2


                                        [ 38 ]
           whose assault included rape or attempted rape), made comments regarding the
           investigation of sexual assaults at the Academy. Of the six comments, two of
           them were somewhat favorable:

                •   “I do not remember who conducted the investigation,47 but it was
                    conducted in the TRG office and was conducted pretty professionally.”

                •   “Over all it doesn’t seem like the cadet is treated with any consideration
                    with regards to classes and other military requirements. OSI was more
                    considerate than the legal offices.”

           Six of the comments were more unfavorable:

                •   “OSI and TRW have lied and mislead me many times…”

                •   “The problem was mainly with the way that the leadership and
                    investigating authorities handled it.”
                •   “OSI attempted to make a friend of mine believe that her assault did not
                    happen. OSI does not need to take any part in the investigation if they will
                    not believe the person who got assaulted in the first place.”

                •    “I reported the sexual assault that happened to me my freshman year, and
                    while this happened away from USAFA by military individual, OSI did
                    NOT investigate the matter. They basically told me to look into it myself
                    and nothing was done.”

                •   “…for the cases investigated and punished, the victim ended up walking
                    tours for her misactions (drinking, fraternization, et cetera) at the same
                    time that the perpetrator was marching his tours for rape, assault, whatever
                    was charged. Under no circumstances should a felony crime be punished
                    at any academy by marching in a circle for a few hours.”

Academy Policies
           Of the 58 cadets who indicated they were victims of sexual assault and who
           provided general comments at the end of the survey, 15 of them (including 9
           whose assault included rape or attempted rape), made comments regarding the
           Academy policies. Of the 15 comments, 5 addressed policy changes in general, 5
           were negative comments about segregation policies, 5 were negative comments
           about the open door policy in the dorms, 2 addressed use of phones in the dorms,
           1 addressed lack of timely communication of policy changes, 1 addressed the
           amnesty clause, and 1 expressed concern for confidentiality. See the following
           examples:

                •   “The majority of the new procedures and policies in the Agenda for
                    Change are ridiculous and do not even begin to address the real problems
                    for females at the academy.”

                •   “Why punish everyone for the mistakes of few…Ask me how I feel before
                    you decide to change my entire life.”
47
     It does not appear that the investigating office was AFOSI.



                                                      [ 39 ]
             "...some of the policiestheyare implementinghereare causinga bigger
             rift betweenthe malesandthe females..."
         .   "I will be forcedto live in a girls hallway...They say it is for purposesof
             integrity andhumandignity, but what they do not realizeis 1HEY TAKE
             A WAY OUR DIONITY AS HUMAN BEINGS BY SEPARATINGUS
             FROM mE PEOPLErnA T WE KNOW AND TRUST AND WORK
             WITH EVERY DAY..."
             "There are many changesoccurring now that seem to be irrelevant to
             sexual assault. Such changesinclude keeping doors open and clustering
             women around the bathroom. The problem with making changesthat
             affect cadets and not sexual assault is that when cadets have to deal with
             those changes,they blame the victims.t'

             "I don't think the open door policy helps. It is very hard to study... when
             your squad...is very, very loud."

             "...1 think our privacy has been revoked with the bad rule of always
             having to have the door open."

              "One of the most important things that can be done at the academy is to
              put phones in every room. Even if there is never an attack in the room,
             just the thought that someonecould call for help if it is needed is a great
              comfort to a potential victim...and a great deterent [sic) to a potential
             attacker,"

Victim Assistance
     Of the 58 cadets who indicated they were victims of sexual assault, and who
     provided general comments at the end of the survey, six of them (including 5
     whose assault included rape or attempted rape), made comments regarding
     assistanceto victims. Seethe following examples:

             "I feel that the hotline provided for cadets is more than adequate. The
             representativesare more than willing to talk to anyone and they can put a
             victim at easebetter than any high ranking official can, It is unfortunate
             that the one thing cadets can actually use here is being questioned and
             tainted
             '        with the idea that if someoneconfides in them they have to report
             It ,"
             "CASIE and the victim advocate were amazing. I don't know what I
             would have done without them."
             ..                         , victimsadvocate,
                                                        hasbeena blessingfor
             survivorsof sexualassault.Sheis completly[sic] devotedto helpingthem
             in any way possible. Without her,manysurvivorswould not still be here.
             In the shortperiodsince              hasbeenhere,shehasspenta great
             deal  of time talking
             that they need. .     to individual survivors
                                                  shewill and
                                                          be agettingtheto
                                                              hugehelp  help to them
                                                                           us."

             "r believe that the Academy has gone completely to the other side of the
             spectrum. They went from not reporting things to making cadets report



                                         [40)
and if unwilling, threatening them to come forward. OSI and TRW have
lied and mislead me many times and I have come to the conclusion that if
my story comes out, no one will want to tell any one what has happened to
them and people will go with out help unless something is changed.”




                           [ 41 ]
Attachment A – Survey Proctor Statement

 Introduction
         Good morning/afternoon, I am a representative of the DoD Inspector
 General and we are evaluating the policies and practices regarding sexual assault
 reporting, investigation, and related issues at the three Service Academies,
 beginning with the Air Force Academy. Our evaluation is separate from any
 other review you may have been part of this year. Our efforts include some of our
 own independent fieldwork as well as taking a look at how the Air Force has
 responded to the issues regarding sexual assaults at the Academy. In order for us
 to assess the climate and identify issues and areas that need attention, it is
 important for us to understand your views and experiences here at the Academy.
 This anonymous survey you will complete today is our way to do that and is a
 very important aspect of our review. The results of this survey will help us to
 assess conditions, identify problems, and recommend solutions to Congressional,
 DoD, and Military Service leaders and policy makers.
         My purpose this morning/afternoon is to provide you general information
 about the survey and instructions on how to complete the survey. I will
 summarize the main points that you will later see in the survey introduction.
         The focus group for our survey is female cadets and midshipmen, since
 they are the ones who have the most potential to become victims of sexual assault
 or some other unwanted sexual attention at the academies. You are part of a
 random sample of the females in your class participating in our survey. The
 survey asks questions about whether you have been the victim of sexual assaults
 and about issues related to sexual assault and sexual harassment at your academy.
         Most people will consider some of the questions in this survey to be very
 personal. We are asking these questions to gain an understanding of your views
 and experiences at your Service Academy and to identify problems for which we
 can recommend solutions. Good recommendations can be made only if everyone
 answers all the questions on the survey that apply to them. Therefore, it is critical
 that you answer each question honestly and completely, in order for the results to
 be valid.
         I assure you that your responses to survey questions are anonymous.
 There is no capability to associate any survey response with a participant. Do not
 use any personal or unit names anywhere on this survey. Again, we stress the
 importance of you providing complete and honest answers.
         If you have any additional comments you would like to make, we strongly
 encourage you to use the comment section at the end of the survey. Additionally,
 if you would like to speak to a representative from our office, contact information
 is provided on a separate handout we will provide you upon completion of the
 survey.




                                         [ 42 ]
Survey Access and Instructions
        When you checked-in outside the briefing room, you drew a sealed
envelope containing a randomly generated access code that is required in order to
access the Web-based survey. This code cannot be associated with you. Once
again, this is an anonymous survey. As you fill out the survey, you will have
several opportunities to type in comments regarding specific questions. We ask
you NOT to use any punctuation, especially commas, when typing in these fields.
To separate your sentences, you can simply insert more spaces or go to the next
line. It should take you between 15 and 30 minutes to complete this survey on-
line, depending on the amount of comments you provide. Once you begin the
survey, you will need to complete it before you click the "Submit Survey" button
at the end of the survey questionnaire. There is no capability to save and return to
partially completed surveys. Once you submit the survey, the access code you
received will be disabled so you may dispose of it accordingly. If you have
questions while completing the survey, ask the proctor in the computer lab. Once
again, your responses count so please answer each question honestly and
completely.

       Do you have any questions at this time? -- Please proceed to the door of
the computer lab and you will be directed to one of the two survey rooms.

(For USAFA, alternate between the two labs where the cadets will complete the
survey.)




                                       [ 43 ]
Attachment B – Categories for Comment Analysis

Incident Reporting
       For Reporting, we identified 10 categories based on a review of the comments
       received. These categories and their descriptions are listed in Table B-1.


             Table B-1 - Categories for Written Comments (Reporting)
 Category        Description
 Confidentiality Any comments regarding Confidentiality or protecting victim
                 identity; not wanting others to know
 Lack of Action Comments regarding lack of prosecution or other actions taken
                 against offender/subject
 Leadership      Comments regarding the Academy leadership, Superintendent,
                 Commandant, AOC, Chain of Command
 Blame Victim Feelings that it's the victim's fault or that victim is lying
 Reprisal        Any comments regarding reprisal, being ostracized, looked at
                 negatively by peers
 Stress          Comments regarding the stressful and lengthy process of reporting
                 and prosecuting; not wanting to deal with it
 Embarrassment Any comments regarding the victim's feeling of embarrassment or
                 shame
 Punishment      Comments about the victim being punished for related
                 infractions/violations; Amnesty
 Help Wanted     Comments about victims wanting help or assistance (whether they
                 report or not)
 Other           Anything that doesn't clearly fit into one of the specific categories


Training
For Training, we identified seven categories, based on a review of the comments. These
categories and their description are listed in Table B-2.

             Table B-2 - Categories for Written Comments (Training)
 Category       Description
 Non-Training   Any comments that do not address training issues
 Report and     Comments regarding training or the understanding of reporting
 Prosecute      procedures and/or the prosecution process or what actions can be
                taken against offender/subject
 CASIE          Any comments regarding CASIE or the cadet hotline




                                           [ 44 ]
 Amnesty           Any comments regarding training or knowledge of amnesty or "not
                   getting in trouble" for related infractions such as drinking or
                   fraternization
 Self Defense      Any comments regarding self defense training
 SA Handout        Any comments regarding the need for sexual assault materials to be
                   provided IN WRITING, i.e. written reporting procedures, key phone
                   list, etc...
 Other             Anything that doesn't clearly fit into one of the specific categories


Cadet Safety
       For Cadet Safety, we identified three categories for use in the two database tables:
Positive, Negative, and Other. (No description was necessary).

General Comments
         For General Comments, we identified 10 categories for use in the five tables; the
first seven stem from focus areas for our evaluation: Reporting, Prosecution, Leadership,
Environment, Investigation, Victim Assistance, and Training.           Two more were
subsequently added (Policy Changes and Survey) based on sampling of the responses.
We also added a “catch-all” category (Other) for those comments that did not fit into one
of the specific categories.

               Table B-3 - Categories for Written Comments (General)
 Category         Description
 Reporting        Any comments regarding reporting or reasons not to report;
                  Confidentiality
 Prosecution      Prosecution or other actions taken against offender/subject
 Leadership       Command climate, leadership, Training Wing (TRW),
                  Superintendent, Commandant
 Environment      Safety, Respect for others, Feelings toward male cadets
 Investigation    Any comments regarding OSI or the investigation
 Victim           Victim assistance programs, Victim rights, CASIE, Amnesty
 Assistance
 Policy           Segregation/Separation of male and female cadets, Open Door
 Changes          Policy, Response to Media
 Survey           Comments regarding survey or requests for survey corrections
 Training         Comments regarding training, education, awareness, communication
 Other            Anything that doesn't clearly fit into one of the specific categories




                                           [ 45 ]
Attachment C                  Survey Instrument

SURVEY INSTRUCTIONS
This is a Web-based Survey. You will enter the data into this survey on-line. Once you
begin the survey, you will need to complete it before you click the "Submit Survey"
button at the end of the survey questionnaire. There is no capability to save and return to
partially completed surveys. Once you submit the survey, the accesscode you received
will be disabled.

If you have questions regarding this survey, contact a proctor at the survey location

If you haveadditiona~stions or concernscontactthe surveyprojectmanagerat (703)
604--     (DSN 664.->; emaill_@dodig.osd.mil.

SURVEY INTRODUCfION

This survey by the DoD Inspector General is being administered to assessthe policies
and practices regarding sexual assault reporting, investigation, and related issuesat the
Nation's Service Academies. The survey asks questions about whether you have been the
victim of sexual assaultsand about issuesrelated to sexual assault and sexual harassment
at the Academy.

ARE SURVEY RESPONSESANONYMOUS?
Yes.   Your responses
                    to surveyquestionsarecompletelyanonymous. Thereis no
capability to associateany survey responseswith a participant. Do not use any personal
or unit names anywhere on this survey.

WHY ME?
You are part of a sample of cadets and midshipmen who representthe female members of
the Service Academics. The only infonnation used to sample individuals for this survey
was to group dtem by Service Academy. gender. and class year. Enough women were
scientifically sampled for this survey so that valid conclusions can be made about the
views and experiencesof female Service Academy cadets and midshipmen.

WHY SHOULD I BOTHER?
We will use the results of this survey to assessconditions, identify problems, and
recommend solutions to congressional, DaD and Military service leaders and policy
makers. While your answers on this survey are completely anonymous, survey results
will influence policy discussionsand may result in changesthat affect you and other
Service academy cadets and midshipmen like you. Your respoale counts. It is critical



                                           [46]
that you answer each question honestly and completely, in order for the results to be
valid.

AREN’T SOME OF THE QUESTIONS VERY PERSONAL?

Most people will consider some of the questions in this survey to be very personal. We
are asking these questions to gain an understanding of your views and experiences at your
Service Academy and to identify problems for which we can recommend solutions. Good
recommendations can be made only if everyone answers all the questions on the survey
that apply to them. Again, we stress the importance of you providing complete and
honest answers.

ABBREVIATIONS:
AOC Air Officer Commanding
AFOSI - Air Force Office of Special Investigations
CID - US Army Criminal Investigation Command
NCIS - Naval Criminal Investigative Service
TAC - Tactical Officer


SECTION 1

1. What is your class year?
                                                     2003   128
                                                     2004   117
                                                     2005   154
                                                     2006   180
Total                                                       579

SECTION 2
Sexual Assault - For purposes of this survey, sexual assault is defined as the touching of
another without their consent in a sexual manner, including attempts, in order to arouse,
appeal to, or gratify the lust or sexual desires of the accused, the victim, or both. Sexual
assault includes, but is not limited to, rape, sodomy, fondling, unwanted touching of a
sexual nature, and indecent sexual acts that the victim does not consent to, or is explicitly
or implicitly forced into. It is immaterial whether the touching is directly upon the body
of another or is committed through the person's clothing.




                                            [ 47 ]
2. Since you have been at the Academy, have you received any of the following kinds of
UNINVITED AND UNWANTED sexual attention?
                                           NUMBER OF INCIDENTS
 Type Of Uninvited, Unwanted                      1 to2    3 to 5 6 or more
Sexual Attention                        Never     times    times      times Missing
a. Actual or attempted sexual assault    455       101       21          2        0
b. Pressure for sexual favors            449        91       24         14        1
c. Leaning over, cornering, pinching or
brushing against, unwanted touching      374       124       53         27        1
d. Sexually suggestive looks, gestures
or body language                            316         141       54       67       1
e. Letters, telephone calls, emails,
instant messaging or materials of a
sexual nature                               354         116       53       56       0
f. Pressure for dates                       392         116       41       30       0
g. Sexual teasing, jokes, remarks or
questions                                   180         155       77       165      2
h. Sexual whistles, calls, hoots or yells   279         166       62        69      3
i. Attempts to get your participation in
any other sexual activities                 477         72        16       12       2
j. Other sexual attention (Specify
below - do not use commas)                  494         17        4         9       55

3. The below listed individuals or groups of individuals make honest and reasonable
efforts to prevent or stop UNINVITED AND UNWANTED sexual attention. (Provide an
answer to each)

                                                     Strongly                    Strongly
PERSON or GROUP of PERSONS                            Agree     Agree   Disagree Disagree
a. Current Senior leadership of my Academy             330       226       12       10
b. Previous Senior leadership of my Academy             57       210      209      101
c. Commissioned officer chain of command
below the Commandant                                   132       329      90       26
d. Academy faculty members                             187       329       51      11
e. My cadet/midshipmen leadership chain                124       321      94       39
f. My fellow cadets/midshipmen                         119       293      127      39




                                            [ 48 ]
4. Prior to January 2003, at your academy, have these actions been taken to prevent
sexual assaults and uninvited, unwanted sexual attention? (Provide an answer to each)
                                                                     I Don't
                                                      Yes    No       Know         Totals
a. Making it clear that this behavior will not
be tolerated.                                         439   104         36          579
b. Investigating complaints.                          201   116        261          578
c. Enforcing penalties against offenders.             150   169        258          577
d. Enforcing penalties against unit
commanders or superiors who tolerate this
behavior.                                             117   147        313          577
e. Providing awareness and prevention
training.                                             499    57         20          576

5. How safe do you feel in the following situations? (Provide an answer to each)
                                                      Somewhat Somewhat Very
                                       Very Safe Safe   Safe    Unsafe Unsafe
a. In your dormitory room with your
roommate.                                  520         52    1           5           1
b. Alone in your dormitory room.           427        106   32           8           5
c. In common areas within the
dormitory.                                 448        105   22           1           1
d. In a dormitory room with a
member of your cadet or
midshipmen chain of command who
is of the opposite sex.                    436        124   14           4           1
e. Alone on academy grounds during
daylight hours.                            469        99     8           1           1
f. Alone on academy grounds during
hours of darkness.                         216        183   116         51           12
g. Alone in the office with a
commissioned officer, or a civilian
instructor.                                436        116   19           5           1

6. At the academy, what is your BIGGEST personal safety fear? (Select the best answer)
I have no fears about my personal safety                            365
That I will be physically assaulted in a non-sexual manner            27
That I will be sexually assaulted                                     51
That I will be hazed or unjustifiably harassed                        82
Other                                                                 53




                                             [ 49 ]
7. Regarding question 6, why do you feel that way? (do not use commas)
Memo Field for Textual Data

8. How much do you agree or disagree with the following statements? Prior to January
2003, the Academy’s leaders… (Provide an answer for each)
                                                Strongly                                I Don't
                                                 Agree             Agree       Disagree Know
a. handled sexual assault cases appropriately      19               67           310      182
b. in general, punished offenders appropriately    25               66           266      221
c. implemented sufficient programs to prevent
sexual assaults                                    96               238          172       70
d. increased awareness and encouraged
victims and others to report sexual assaults      113               203          216       45
e. effectively assisted sexual assault victims     31                85          254      208
f. treated sexual assault victims fairly           27               70           263      216
g. did not tolerate sexual assaults                75               183          176      143
h. had a good process for reporting sexual
assaults                                           59               134          243      141

9. How much do you agree or disagree with the following statements: Prior to January
2003, the Academy agencies/entities listed below, effectively handled matters related to
sexual assaults…(Provide an answer for each)
                                                 Strongly                               I Don't
                                                  Agree          Agree       Disagree    Know
a. Cadet/midshipman Victim/Witness
Assistance Office                                      97         139          20        321
b. Cadet/midshipman Counseling Center                 115         192          37        233
c. Academy Medical facilities                          45         128          111       293
d. Academy Legal personnel                             31          97           85       362
e. OSI, CID or NCIS                                    32          71          140       332
f. Security Forces, Military Police, Masters
at Arms                                               28          73           76        397

10. How much do you agree or disagree with the following statements: Most
cadets/midshipmen are willing to… (Provide an answer to each)
                                                      Strongly                          Strongly
                                                       Agree       Agree       Disagree Disagree
a. report a sexual assault incident regardless of
loyalty to the offender                                     45         150       282       101
b. report a sexual assault incident even if the
victim told them in confidence                              20         121       347       90


                                             [ 50 ]
c. provide information that might implicate
themselves or others in lesser infractions, such
as underage drinking                                  23          94         301       159

Sexual Assault - For purposes of this survey, sexual assault is defined as the touching of
another without their consent in a sexual manner, including attempts, in order to arouse,
appeal to, or gratify the lust or sexual desires of the accused, the victim, or both. Sexual
assault includes, but is not limited to, rape, sodomy, fondling, unwanted touching of a
sexual nature, and indecent sexual acts that the victim does not consent to, or is explicitly
or implicitly forced into. It is immaterial whether the touching is directly upon the body
of another or is committed through the person's clothing.

11. Using the definition provided, since becoming a cadet/midshipman, have you been
sexually assaulted?
Yes (If yes, please continue with question 12)               109
No (If no, please click here to skip to question 26)         470

Rape - For purposes of this survey, rape is defined as an act of sexual intercourse with a
female, by force and/or without her consent (conscious or unsconcious). Penetration,
however slight, is sufficient to complete the offense.

12. Did the assault involve rape or attempted rape?
Yes                                                              43
No                                                               66
                         Total                                  109

13. Keeping the definition of sexual assault in mind, since becoming a cadet/midshipman,
how many times have you been the victim of sexual assault?
Once                                                            68
Twice                                                           23
Three times                                                      9
Four or more times                                               9
Total                                                          109

For the following questions (14 through 25) regarding sexual assault(s), if you have been
sexually assaulted one time, use the 1st incident column only. If you have been the victim
of more than one sexual assault, then please use the remaining columns for additional
incidents as appropriate.




                                            [ 51 ]
14. The sexual assault(s) occurred in:
                          If Applicable
                1st      2nd        3rd    4th
              Incident Incident Incident Incident          Totals
  a. 1999        12        0         0       0               12
  b. 2000        22       10         2       0               34
  c. 2001        27       10         4       3               44
  d. 2002        38       13         7       5               63
  e. 2003        8         7         5       1               21
  Totals        107       40        18      9               174

15. Where did the sexual assault(s) occur?

                                                   IF APPLICABLE
                                           1st       2nd     3rd      4th
                                         Incident Incident Incident Incident Totals
a. On Installation in dorm                  42        15       5        3     65
b. On Installation (Not in dorm)            25        15       6       3      49
c. Off Installation at an Academy
Sponsored Event                               7       1         2       1        11
d. Off Installation (Not Academy
event)                                        33      10        4       2        49
Totals                                       107      41       17       9       174

16. The offender(s) was a…(Check all that apply)
                                           1st      2nd      3rd      4th
                                         Incident Incident Incident Incident Totals
a. cadet/midshipman who was senior
to me                                      38        16         8         3      65
b. cadet/midshipman who was not
senior to me                              49         22        8          5      84
e. Military personnel not assigned to
the installation                            3         1         0         0       4
g. civilian not affiliated with the
installation                               7          1         1         0       9
h. unidentified person                     7          0        0          0       7
c. Staff or faculty member
d. Civilian assigned to installation
f. Other installation military person       3         1         0         0       4
Totals                                    107        41        17         8      173
Note: Items c, d, and f were combined to ensure the anonymity of the respondents


                                             [ 52 ]
17. Did you report the sexual assault(s) to the authorities?
                              1st      2nd      3rd      4th
                            Incident Incident Incident Incident           Total
a. Yes                         22        8        2        1                33
b. No                          86       33       16        8               143
Totals                        108       41       18       9                176

If you were the victim of one sexual assault incident and answered no to question 17, or if
you are the victim of multiple incidents of sexual assault, and did not report any of those
incidents to the authorities, then please go to question 25. Otherwise, please complete
questions 18 through 24 by making selections in the appropriate incident columns.


18. To which AUTHORITIES did you report that you were sexually assaulted? (Check
all that apply)
                                                    1st     2nd      3rd      4th
Authorities                                      Incident Incident Incident Incident Total
a. Command (AOC, TAC, Company
Commander)                                           12        4      0           1     17
b. Academy staff & faculty member (Not
including AOC, TAC, Company
Commander)                                           9         2      1           0     12
c. Military hotline run by cadets/midshipmen         8         2      0           0     10
d. Military hotline NOT run by
cadets/midshipmen                                    1         0      0           0     1
e. Person in cadet/midshipmen chain of
command                                               4        1      0           1      6
f. Upperclassman not in chain of command              5        3      1           0      9
g. Academy Counseling Center                         11        4      0           0     15
h. Installation Medical Personnel                     5        4      0           0     9
i. Off-Installation Medical Personnel                 0        2      0           0     2
j. Off-Installation Counseling Center                 1        0      0           0      1
k. OSI, CID, or NCIS                                  4        1      0           0     5
l. Security Forces, Military Police, or Master
at Arms                                              2         1      0           0     3
m. Academy Inspector General’s Office                0         1      0           0     1
n. Installation chaplain/clergy                      4         0      0           0     4
o. Non-Installation chaplain/clergy                  0         0      0           0     0
p. Civilian Law Enforcement Agency                   1         1      0           0     2
q. N/A, I did not report this particular
incident                                             7         4      4           2     17



                                            [ 53 ]
r. Other (please explain - do not use
commas)                                                  3           2         0           0        5
Totals                                                  70          28         2           2       119

19. Did a military criminal investigative organization (OSI, CID, or NCIS) or a civilian
law enforcement agency conduct a criminal investigation?
                                                   1st      2nd      3rd      4th
                                                 Incident Incident Incident Incident Total
a. Yes                                               6        3        0        0     9
b. No                                               15        3        1        1     20
c. Unknown                                           1        0        0        0      1
d. N/A, I did not report this particular
incident*                                         9          6        4          2       21
*This selection is appropriate for victims of multiple incidents who reported at least one
incident, but not all incidents.

20. If a criminal investigation was not conducted, do you know why? (Select the best
answer)
                                                          IF APPLICABLE
                                                 1st              2nd            3rd         4th
                                               Incident         Incident       Incident    Incident
a. I chose not to report it to law
enforcement officials                                  18            6             2           0
b. I declined to provide a statement to law
enforcement officials                                  0             0             0           0
c. I don’t know                                        4             1
d. N/A, a criminal investigation was
conducted                                              4             3             2           2

21. What action was taken against the offender(s) regarding your sexual assault(s)?
(Select one answer per offender)
                                                             IF APPLICABLE
                                                               1st      2nd      3rd      4th
                                                             Incident Incident Incident Incident
a. Offender was court-martialed and convicted                    0        0        0        0
b. Offender was court-martialed and acquitted                    0        0        0        0
c. Offender received Article 15 punishment                       0        0        0        0
d. Offender was dismissed from the Academy (no
further action taken)                                           2          1           0           0
e. Offender was allowed to voluntarily leave
Academy (no further action taken)                               2          0           0           0



                                              [ 54 ]
f. Offender received administrative action from the
Academy (tours, demerits, restriction, etc.), but no
further action was taken                                   1         0         0          0
g. No action taken against the offender                    7         4         3          1
h. I don’t know, I was not informed                        1         3         0          0
i. Offender was never identified                           1         0         0          1
j. N/A, I did not report this particlar incident          11         3         1          1
k.Other (please explain - do not use commas)              6          2         1          0

22. I feel that the action taken against the offender(s) was...(Select the best answer)
                                                                  IF APPLICABLE
                                                         1st      2nd      3rd      4th
                                                       Incident Incident Incident Incident
a. Too lenient                                             7        3        1
b. Appropriate given the circumstances                     4        2
c. Too severe
d. N/A, The offender was not identified                   1                               1
e. N/A, I don’t know what if any action was taken          3          3
f. N/A, I did not report this particular incident         15          5         4         2

23. After you reported that you were sexually assaulted, did you experience any reprisal
as a result?
                                                               IF APPLICABLE
                                                         1st      2nd      3rd      4th
                                                       Incident Incident Incident Incident
a. Yes                                                     9       5        1         0
b. No                                                     14        3        0        1
c. N/A, I did not report this particular incident          7        5        4        2

24. If yes, what reprisal did you suffer? (Check all that apply)
                                                                   IF APPLICABLE
                                                          1st     2nd      3rd      4th
                                                       Incident Incident Incident Incident
a. Reprisal from upperclassmen in my chain of
command                                                    2         2          1         0
b. Reprisal from upperclassmen NOT in my chain
of command                                                 4         4          1         0
c. Reprisal from Academy staff or faculty                            2          0         0
d. Reprisal from command officials (AOC, TAC,
Company Commander)                                         2         1          0         0



                                             [ 55 ]
e. Ostracized by peers                                   6     5       2        1
f. Punished unfairly for other unrelated
infractions/violations                                   5     2       1        0
g. Punished unfairly for other infractions/violations
you committed                                            2     1       0        0
h. I did not suffer reprisal                             3     0       0        1
i. N/A, I did not suffer repercussions                   13    5       0        0
j. Other (do not use commas)                             2     0       0        0

25. If you did NOT report the sexual assault(s), why not? (Check all that apply)
                                             1st      2nd       3rd        4th
                                         Incident Incident Incident Incident Totals
a. Feared reprisal from upperclassmen in
my chain of command                             16      10    6       3       35
b. Feared reprisal from upperclassmen
NOT in my chain of command                      17      10    8       4       39
c. Feared reprisal from Academy staff or
faculty                                         14       4    1       1       20
d. Feared reprisal from command
officials (AOC, TAC, Company
Commander)                                      21      8     5       2       36
e. Feared being ostracized by peers             41      14    9       5       69
f. Feared being punished for other
infractions/violations I committed              24      6     4       2       36
g. Believed that nothing would be done
about the sexual assault                        39      14    7       4       64
h. Not aware of reporting procedures            11       7    4       1       23
i. Embarrassment                                51      19    8       4       82
j. Fear that a significant other would find
out                                              8       3    2       1       14
k. Does not apply – I reported it                8       4                    12
l. Other (please explain - do not use
commas)                                          25      8     4      2       39
Totals                                          275     107   58     29       469




                                              [ 56 ]
SECTION 3

26. From your perspective, other than embarrassment or shame, what do you think is the
number ONE reason why some victims, at your academy, do not report sexual assaults?
(Select the best answer)
Reasons                                                                        Totals
a. Feared reprisal from upperclassmen in the chain of command                     12
b. Feared reprisal from upperclassmen NOT in the chain of command                 14
c. Feared reprisal from Academy staff and faculty                                  5
d. Feared reprisal from command officials (AOC, TAC, Company
Commander)                                                                        24
e. Feared being ostracized by peers                                              190
f. Feared being punished for other infractions/violations committed              155
g. Believed that nothing would be done about the sexual assault                   57
h. Not aware of reporting procedures                                               3
i. Fear that a significant other would find out                                    5
j. Other (please explain - do not use commas)                                    108
Total                                                                            573

SECTION 4

27. Prior to January 2003, if you have had the below listed training, please indicate
whether you believe the training was adequate or in need of improvement. (Provide an
answer to each item)
                                                               Needs        N/A Not
 Training                                     Adequate Improvement Trained Totals
a. Understanding sexual assault (definition)     502             65             11    578
a. Reporting sexual assault                      316            233             29    578
c. Investigating sexual assaults (OSI, CID,
NCIS role)                                       134            244            198    576
d. Police role in sexual assaults (Security
Forces, Military Police, Masters at Arms)        115            228            228    571
e. Command’s role in handling sexual
assaults                                         161            272            140    573
f. Medical personnel’s role in sexual
assaults                                         286            188             98    572
g. Counseling center’s role in sexual
assaults                                         386            144             46    576
h. Hotline’s role in sexual assaults             460             85             30    575
i. SJA/Legal office's role in sexual assaults    146            220            208    574
j. Victim/Witness Assistance Program             207            197            169    573


                                         [ 57 ]
k. Dormitory security procedures            354   128    91   573
l. Self-defense training                    451   107   16    574
m. Amnesty programs                         107   307   157   571

Section 5
General Comments
Memo Field for General Comments




                                   [ 58 ]
Attachment D – Letter from Senate Governmental
            Affairs Committee
Letter dated February 24, 2003, from Susan M. Collins, Chairman, and Joseph I.
Lieberman, Ranking Minority Member, Senate Committee on Governmental Affairs




                                       [ 59 ]
Attachment E – Letter from Senate Armed
            Services Committee
Letter dated February 27, 2003, from Senator John Warner, Chairman, Senate Committee
on Armed Services, and Senator Wayne Allard.




                                        [ 60 ]
